Who We Are
The Office of the Inspector General (OIG) is responsible for meeting the statutory mission of promoting
economy, efficiency, and effectiveness in the administration of Social Security Administration (SSA)
programs and operations; and preventing and detecting fraud, waste, abuse, and mismanagement in
such programs and operations. To accomplish this mission, we conduct and supervise a comprehensive
program of audits, evaluations, and investigations. We also search for and report systemic weaknesses
in SSA programs and operations, and make recommendations for needed improvements and corrective
actions.

What We Do
We strive for continual improvement in SSA’s programs, operations, and management by proactively
seeking new ways to prevent and detect fraud, waste, and abuse. We commit to integrity and excellence
by supporting an environment that provides a valuable public service while encouraging employee
development and retention, and fostering diversity and innovation.

Reach Us

     	 @TheSSAOIG

     	          /OIGSSA

     	          /TheSSAOIG

     	 http://oig.ssa.gov



Report Fraud
Reporting is easy, safe, and secure. You can reach us by internet, mail, phone, or fax.

Internet: 	 	      http://oig.ssa.gov/report

U.S. Mail: 		      Social Security Fraud Hotline
			                P.O. Box 17785
			                Baltimore, Maryland 21235

FAX: 	      	      (410) 597-0118

Telephone: 	       (800) 269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
TTY: 		            (866) 501-2101 for the deaf or hard of hearing


Feedback
After reading our Semiannual Report to Congress, we encourage you to take a brief, anonymous survey
to let us know how we're doing. The survey is available on our website listed above. We appreciate any
feedback that can help us improve our publication.
Semiannual Report to Congress              TABLE OF CONTENTS


    A Message from the Inspector General................................................................................ 3
    Key Accomplishments........................................................................................................... 4
    Executive Summary................................................................................................................ 5
    Introduction to Our Organization ......................................................................................... 6
    Management Challenges........................................................................................................ 8
    Audit....................................................................................................................................... 10
      Recovery Act........................................................................................................................ 10
      Significant Audit Activities.................................................................................................... 10
    Investigations........................................................................................................................ 15
      Investigative Results............................................................................................................ 15
      Significant Investigative Activities........................................................................................ 18
      Cooperative Disability Investigations .................................................................................. 22
    Legal...................................................................................................................................... 25
      Section 1140........................................................................................................................ 25
      Section 1129........................................................................................................................ 27
    Support.................................................................................................................................. 29
      Budget.................................................................................................................................. 29
      Human Resources............................................................................................................... 29
      Information Technology........................................................................................................ 29
      Allegation Management and Fugitive Enforcement............................................................. 30
    Appendices ...........................................................................................................................31
      Reporting Requirements ..................................................................................................... 32
      Appendix A: Resolving Audit Recommendations................................................................. 33
      Appendix B: Reports Issued................................................................................................ 35
      Appendix C Reporting Requirements Under the Omnibus Consolidated
                         Appropriations Act of 1997............................................................................. 41
      Appendix D: Significant Management Decisions with which the Inspector General
                         Disagrees....................................................................................................... 43
      Appendix E: Collections from Investigations and Audits..................................................... 45
      Appendix F: Significant Monetary Recommendations from Prior Fiscal Years
                         for which Corrective Actions have not been Completed................................. 47
      Appendix F: Significant Monetary Recommendations from Prior Semiannual
                         Report to Congress for which Recent Corrective Actions Have Been
                         Made............................................................................................................... 52
      Appendix G: Significant Non-Monetary Recommendations from Prior Fiscal
                         Years for which Corrective Actions have not been Completed....................... 53
      Appendix G: Significant Non-monetary Recommendations from Prior Semiannual
                         Report to Congress for which Recent Corrective Action has been Made...... 60
      Appendix H: Peer Reviews................................................................................................. 61
      Appendix I: Review of Legislation and Regulations .......................................................... 62
    Glossary of Acronyms.......................................................................................................... 63




2                                                                                                        October 1, 2012 - March 31, 2013
        A MESSAGE FROM THE INSPECTORSemiannual
                                      GENERAL  Report to Congress



  We won’t soon forget Hurricane Sandy and the devastation the super storm inflicted on much of the
  East Coast in October 2012. The hurricane caused 72 deaths in eight
  states and tens of billions of dollars of damage, as severe floods
  and fires destroyed thousands of homes and left millions without
  electricity for weeks. The events were truly harrowing; we continue
  to keep those affected in our thoughts and prayers.

  I remain very proud of the Social Security Administration (SSA) Office
  of the Inspector General (OIG) employees who responded to help
  their communities recover from the devastating storm. Our agents in
  New Jersey and New York supported SSA and citizens who depend
  on the Agency, setting up temporary workspaces for SSA employees,
  escorting Federal officials to assess the damage to SSA offices, and
  managing crowds at offices that opened after the storm. Our agents
  also assisted the American Red Cross on Staten Island and were
  the first Federal agents to offer assistance, working through the first
  weekend of the storm and beyond.

  With these outstanding efforts in mind, I am pleased to present our
  Semiannual Report to Congress, covering the period October 1, 2012 through March 31, 2013.
  This report includes our most significant audit, investigative, and legal accomplishments, as we
  continue to work with SSA to improve Agency functions, and, in turn, the services it provides.

  During this reporting period, we issued 55 audit reports covering a wide range of Social Security
  issues. The most-read reports on our website over the last 6 months specifically focused on SSA’s
  disability programs:

  •   Termination of Disability Benefits Following a CDR Cessation Determination;
  •   Individuals Hiding Self-Employment Income to Receive Disability Insurance Benefits ; and
  •   SSI Applicants with Earnings Received After the Disability Onset Dates and Before Favorable
      Hearing Decisions

  In this Semiannual Report to Congress, you can also read highlights of the audit reports we feel
  were our most significant accomplishments of the reporting period.

  In the past six months, our investigators continued to focus on high-priority allegations of fraud in
  SSA’s electronic systems, Social Security number misuse that led to improper benefit payments,
  and employee misconduct and misuse of government computers. Also, our team of attorneys
  continued outreach and enforcement efforts to identify and prevent violations of Sections 1129 and
  1140 of the Social Security Act.

  All of our daily efforts, as well as our response to unforeseen events like Hurricane Sandy, illustrate
  the extraordinary dedication of OIG employees, and it is an honor to work with them, day in and
  day out. I assure you that we will continue to work with SSA and the Congress, to ensure that the
  Agency honors its commitment to all American citizens both now and into the future.




                                   S
October 1, 2012 - March 31, 2013                                                                            3
                                        Patrick P. O'Carroll, Jr.
                                          Inspector General



                                      Back to Table of Contents
Semiannual Report to Congress



EXECUTIVE SUMMARY

                                  Key Accomplishments
                                  October 1, 2012 - March 31, 2013

      Total Audit Reports Issued                                                           55
      Questioned Costs                                                           $740,014,798
      Funds Put to Better Use                                                     $52,499,193
      Total Allegations Received                                                       59,745
      Investigations Opened                                                             3,963
      Investigations Closed                                                             4,077
      Arrests                                                                             275
      Indictments/Informations                                                            582
      Criminal Convictions                                                                711
      Civil/Civil Monetary Penalties                                                      134
      Cooperative Disability Investigations
      Program Results (10/1/12-3/31/13)
        Confirmed Fraud Cases                                                              2,068
        SSA Savings                                                               $169,810,725
        Non-SSA Savings                                                           $122,523,007


This report presents the significant activities of the SSA OIG from October 1, 2012 through March 31,
2013. The report details the achievements of the OIG’s offices of Audit, Investigations, Counsel, and
OIG's support components.


Audit
In the first half of fiscal year (FY) 2013, OIG auditors issued 55 reports and made recommendations on
a variety of challenges facing SSA. Auditors also identified more than $740 million in questioned costs
and more than $52 million in Federal funds that could be put to better use.
Among their noteworthy reports completed during the reporting period, OIG auditors issued three reviews
of SSA’s controls over the processing of beneficiary direct deposit information. Auditors found controls
over direct deposit changes were not fully effective and did not prevent SSA from processing changes
requested by someone other than the beneficiary or his/her representative. SSA should continue work
on enhancing the authentication and verification processes related to direct deposit information.




4                                                                       October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                              Semiannual Report to Congress




Investigative
During this reporting period, we received more than 59,000 allegations from SSA employees, the
Congress, the public, law enforcement agencies, and other sources. OIG agents closed more than 4,000
criminal investigations, resulting in 275 arrests, 582 indictments and informations, 711 criminal convictions
(including pretrial diversions), and 134 civil judgments or civil monetary penalty (CMP) assessments.
In one notable case, we investigated a Baltimore man who concealed his work and earnings from 1996
to 2009 while receiving disability benefits. From 2007 to 2010, he even worked for SSA as a benefit
authorizer. During the reporting period, a jury found the man guilty of Social Security fraud. He was
sentenced to two years in prison and ordered to pay more than $121,000 to SSA. The Agency terminated
his employment in 2010.
We are reporting over $254 million in investigative accomplishments, including over $52 million in SSA
recoveries, restitution, fines, settlements, and judgments; and over $201 million in projected savings
from investigations resulting in the suspension or termination of benefits.
The Cooperative Disability Investigations (CDI) program continues to be one of SSA and OIG’s most
successful initiatives, ensuring the integrity of SSA’s disability programs. CDI efforts during this reporting
period resulted in almost $170 million in projected savings to SSA programs.


Legal
Our attorneys initiated 240 CMP actions against individuals who made false statements, representations,
or omissions to obtain or retain Social Security benefits (violations of Section 1129 of the Social Security
Act). OIG attorneys imposed $5.3 million in penalties and assessments through the CMP program. We
also pursued actions to protect the public from fraudulent schemes that make use of the SSA’s well-
known name and good reputation (violations of Section 1140). During this reporting period, weachieved
voluntary compliance in 41 Section 1140 cases and deterred future violations through aggressive outreach
and enforcement efforts.


Outreach
During the emergency response to Hurricane Sandy, the OIG’s New York Field Division provided
services to the American Red Cross and the victims of the floods and fires in Staten Island, the New
Jersey shores, Breezy Point, and Far Rockaway, New York. Also during the reporting period, Inspector
General O’Carroll testified before the House Subcommittee on Social Security on Disability Insurance
(DI) program integrity; and he spoke at the National Association of Disability Examiners (NADE) mid-
year board meeting in Baltimore, Maryland.




October 1, 2012 - March 31, 2013                                                                            5




                                         Back to Table of Contents
Semiannual Report to Congress



INTRODUCTION TO OUR ORGANIZATION
SSA OIG comprises the Immediate Office of the Inspector General and five major components: the
Offices of Audit, Counsel, External Relations, Investigations, and Technology and Resource Management.




Immediate Office of the Inspector General
The Immediate Office of the Inspector General (IO) assists the Inspector General with the full range of
his responsibilities. IO staff also coordinates with SSA, congressional committees, the Social Security
Advisory Board, and the Council of Inspectors General on Integrity and Efficiency (CIGIE). IO also
includes the Office of Quality Assurance and Professional Responsibility (OQAPR), which reviews OIG
component offices to ensure compliance with Federal laws and regulations, Agency policies, and relevant
professional standards; and conducts investigations into allegations of misconduct by OIG employees.



6                                                                      October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                          Semiannual Report to Congress




Office of Investigations
The Office of Investigations (OI) conducts investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants, beneficiaries,
contractors, and third parties, as well as by SSA employees. This office serves as the OIG’s liaison to
the Department of Justice (DOJ) on all investigative matters. OI also conducts joint investigations with
other law enforcement agencies, and shares responsibility with the Department of Homeland Security’s
(DHS) Federal Protective Service (FPS) for investigating threats or violence against SSA employees
and facilities.


Office of Audit
The Office of Audit (OA) conducts financial and performance audits of SSA programs and operations, and
makes recommendations to ensure that program goals are achieved effectively and efficiently. Financial
audits determine whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of
SSA’s programs and operations. OA also conducts short-term management and program evaluations
on issues of concern to SSA, the Congress, and the general public.


Office of External Relations
The Office of External Relations (OER) disseminates information about the OIG’s work to Congress,
the media, and the public. OER prepares presentations for OIG executives, publishes informational
materials, prepares the Semiannual Report to Congress, and represents the OIG in the news media.
OER also maintains the OIG presence on the Internet, and supports OIG components with respect to
external communications.


Office of the Counsel to the Inspector General
The Office of the Counsel to the Inspector General (OCIG) provides independent legal advice and
counsel to the Inspector General on a wide range of issues, including statutes, regulations, legislation,
and policy directives. OCIG also administers the CMP program, and advises the Inspector General on
investigative procedures and techniques, as well as on the legal implications of audit and investigative
activities.


Office of Technology and Resource Management
The Office of Technology and Resource Management (OTRM) provides administrative support to
the Inspector General and OIG components. OTRM formulates and executes the OIG budget, and is
responsible for strategic planning, performance reporting, and facility and property management. OTRM
manages OIG human resources and develops administrative policies and procedures. OTRM also
maintains hardware, software, and telecommunications networks to support the OIG’s mission. Finally,
OTRM manages the OIG’s Allegation Management and Fugitive Enforcement Division.




October 1, 2012 - March 31, 2013                                                                       7




                                       Back to Table of Contents
Semiannual Report to Congress



MANAGEMENT CHALLENGES
OIG annually identifies the most significant management issues facing SSA based on legislative
mandates and its audit and investigative work. A summary of each issue is below:

Strengthen Strategic and Tactical Planning
While near-term planning is important, SSA needs plans that address long-term challenges, including
a rising workload, a decrease in experienced staff, overly complex program policies, and a rising need
to provide more services electronically. As workloads rise, a greater proportion of SSA’s workforce will
also become eligible to retire. At a time when SSA needs to plan to do more with less, SSA lacks long-
term plans in a number of critical areas. In its report, The Social Security Administration: A Vision of
the Future, the Social Security Advisory Board recommended that SSA take multiple steps to ensure
success in 2020, including rethinking its service delivery strategy, performing a comprehensive review
of program policy to reduce complexity, establishing a Systems Modernization Plan, and developing a
Human Capital Plan.

Improve Customer Service
Many factors challenge SSA’s ability to provide quality customer service to the public, including budget
constraints, growing workloads, changing customer expectations, an aging, retirement-eligible agency
workforce, and shifting demographics. Each day, almost 182,000 people visit SSA field offices. SSA
serves over 60 million people per year over the national 800 telephone number and an additional
53 million phones calls that are handled by the field offices , but in FY 2012, SSA lost over 1,600
employees. Consequently, the Agency projected its national 800 number customer service would
deteriorate significantly. The projected retirement of its employees continues to present a challenge to
SSA’s customer service capability. In addition, technology is rapidly changing and the public expects to
complete more business online.

Improve the Timeliness and Quality of the Disability Process
SSA needs to address millions of initial disability and reconsideration claims, and it also continues
to have a backlog of continuing disability reviews (CDR). Over the past 2 years, SSA has received a
large influx of initial and reconsideration claims. We have an ongoing audit to look at SSA’s progress in
reducing the initial claims backlog. SSA also has a backlog of 1.2 million medical CDRs. Medical CDRs
are effective in reducing overpayments in the DI program, and therefore, are a critical workload. We
have continued working with SSA to address the integrity of the disability programs through CDI that
obtain evidence to resolve questions of fraud in SSA’s disability claims.


Improve Transparency and Accountability
SSA faces a number of challenges in ensuring accountability, including concerns over its internal controls,
systems security, and administrative cost allocations. SSA continues to lack a full set of performance
indicators that measure whether the Agency is meeting all its strategic goals. Moreover, we believe SSA
can bring greater accountability to its administrative cost allocation. Finally, in the FY 2012 Independent
Auditor’s Report, the auditors cited a material weakness and a significant deficiency in an internal
control related to monitoring activities and overall control environment, and information security.



8                                                                         October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                            Semiannual Report to Congress




Invest in Information Technology Infrastructure to Support Current and Future Workloads
SSA will not be able to manage current and future workloads without the proper IT infrastructure. The
Agency uses a variety of technologies, including telephone service, Internet services and tools, and
videoconferencing, to deliver service to its customers. However, SSA must find ways to expand easy-
to-use and secure electronic services for its customers. We have concerns regarding the Agency’s
IT physical infrastructure; logical access controls and security of sensitive information; development
of electronic services; and strategic IT planning. Our prior audit work in this area found that SSA’s IT
planning process only spans 2 years.

Reduce Improper Payments and Increase Overpayment Recoveries
SSA must be a responsible steward of the funds entrusted to its care and minimize the risk of making
improper payments. SSA strives to balance its service commitments to the public with its stewardship
responsibilities. Given the size and complexity of the programs, some payment errors will occur, but
due to the large overall dollars involved in SSA’s payments, even the slightest error can result in millions
of dollars in over- or underpayments. Once SSA determines an individual has been overpaid, it must
recover any overpayment. SSA uses a variety of methods to collect the debt related to overpayments,
but SSA reported that the percent of debt collected decreased from FY 2011 to FY 2012.

Reduce the Hearings Backlog and Prevent its Recurrence
SSA has directed increased resources to improve hearing timeliness and process more hearings.
While timeliness and ALJ productivity have improved, an increased number of applicants has led to an
increase in the hearings backlog. Expanded use of video teleconferencing, the relocation of unused
equipment and expanded use of desktop video units could increase the available capacity of video
hearings. Also, various obstacles impact the hearing office staff’s ability to timely schedule hearings. 
Finally, Congress continues to express concerns about ALJ adherence to the Agency’s policies and
procedures while demonstrating good stewardship of taxpayer dollars.

Strengthen the Integrity and Protection of the Social Security Number
Protecting the SSN and properly posting the wages reported under SSNs are critical to ensuring that
SSN integrity and eligible individuals receive the full benefits due them. We remain concerned about
SSN misuse by noncitizens who are not authorized to work in the United States, as well as the misuse of
children’s SSNs for work and identity theft purposes. Accuracy in recording workers’ earnings is critical
because future benefit payments are calculated based on the earnings an individual accumulates over
his/her lifetime. While SSA cannot control all the factors associated with erroneous wage reports, we
believe there are ways it could improve wage reporting.




October 1, 2012 - March 31, 2013                                                                          9




                                        Back to Table of Contents
Semiannual Report to Congress




AUDIT

Significant Audit Activities
American Recovery and Reinvestment Act of 2009
On February 17, 2009, the President signed into law the Recovery Act, Public Law. 111-5. The
Administration is committed to investing Recovery Act funds with an unprecedented level of
transparency and accountability so Americans know where their tax dollars are going and how they
are being spent. SSA was provided funds under the Recovery Act in the following areas:

• $500 million designated for the replacement of SSA’s National Computer Center (NCC);
• $500 million designated for processing disability and retirement workloads, and information
technology acquisitions and research in support of these workloads; and,
• $90 million to reimburse costs for processing a one-time economic recovery payment (ERP) of $250
to millions of qualified individuals receiving Social Security benefits and/or Supplemental Security
Income (SSI).

Congress provided our office $2 million to oversee SSA programs, projects, and activities funded by
the Recovery Act. During this reporting period, we issued one final report related to our oversight of
the NCC replacement.


National Support Center Cost Savings
The purpose of this review was to determine the following:

1. Whether the selected Design/Build proposal fully incorporates SSA’s Program of Requirements
   (PoR). Specifically, does the Design/Build proposal provide reasonable assurance that SSA will
   receive a data center that is cost-effective, efficient, with the required capacity, operational in the
   required timeframe, and has an appropriate useful life.

2. Whether there are any additional cost savings opportunities that can be incorporated into the
   National Support Center (NSC) PoR without significantly affecting the project’s schedule while
   meeting SSA’s needs.

OIG contracted with Strategic e-Business Solutions, Inc. (SeBS) and its subcontractor, Fortress
International Group, to assist with this review.

SeBS determined that the proposed conceptual level design for the NSC meets or exceeds
the mandatory requirements and generally follows best practices. SeBS identified cost-savings
opportunities for the Agency’s consideration. However, because of the critical nature of this project
and the need to keep the project on-schedule, several identified cost savings represent missed cost-
saving opportunities, such as designing a Multi-Tier Data Center with Electrical Power Distribution
options.




10                                                                         October 1, 2012 - March 31, 2013




                                        Back to Table of Contents
                                                                              Semiannual Report to Congress




The Agency agreed with 17 of 27 recommendations and has implemented 4 of those. The other 13
observations with which SSA agreed, if implemented, could potentially result in a net project cost
savings ranging from $600,000 to $950,000.


Controls over the Enrollment Process with the Direct Express® Debit Card Program
(Limited Distribution)

Direct Deposit Changes Initiated Through Financial Institutions and SSA’s Internet and
Automated 800-Number Applications (Limited Distribution)

Controls over Direct Deposit Changes Initiated in Field Offices (Limited Distribution)

These reports contain restricted information for official use. Distribution is limited to authorized officials.

These three audits determined the effectiveness of controls over:

•   the beneficiary enrollment process for the Express® Debit Card Program;
•   direct deposit changes originating in financial institutions and SSA field offices; and
•   direct deposit changes initiated through SSA’s Internet and Automated 800-Number Applications.

In October 2011, we began tracking allegations that indicated individuals other than the beneficiaries
or their representatives had redirected benefit payments away from the beneficiaries’ bank accounts to
accounts the individuals controlled.

Our reviews found that the controls over direct deposit changes were not effective and did not prevent
SSA from processing direct deposit account changes requested by someone other than the beneficiary
or his/her authorized representative. More specifically, unauthorized individuals redirected beneficiaries’
benefit payments by initiating changes to the beneficiaries’ direct deposit information at SSA’s field
offices and through its Internet and Automated 800-number applications. The individuals also redirected
benefits through auto enrollment and the Direct Express® Debit Card Program.

To prevent fraudulent changes to beneficiaries accounts, our reports recommended that SSA work
to enhance the authentication process for the Direct Express® Debit Card and to strengthen identity
verification procedures when individuals contact SSA to request direct deposit account changes.

SSA agreed with our recommendations. In November 2011, to reduce fraudulent changes, SSA revised
its policy for verifying the identities of callers who request to establish, change, or cancel direct deposit
payments. In addition, SSA issued reminders to its staff on how to properly process callers’ requests
to change direct deposit information, especially if the related record in SSA’s systems had notations
indicating the beneficiary’s direct deposit information was previously changed fraudulently. SSA also
developed an application that allows beneficiaries to elect to prevent future automated enrollment
changes from updating SSA payment records. Lastly, in March 2013, SSA terminated the Direct Deposit
Automated Application for all field office and 800-number callers.




October 1, 2012 - March 31, 2013                                                                            11




                                         Back to Table of Contents
Semiannual Report to Congress




Usefulness of Department of Homeland Security Data to Identify SSI Recipients Who Are Outside
the United States
Generally, SSI recipients are ineligible for payments once they are absent from the United States
for 30  consecutive days. The Department of Homeland Security's (DHS) U.S. Customs and Border
Protection collects travel data on individuals who enter and leave the U.S.

Despite legal and technical challenges in obtaining DHS data, our review estimated that foreign-born
SSI recipients had approximately $152 million in overpayments because of unreported absences from
the United States between September 2009 and August 2011. SSA could identify more overpayments
if it were able to look at all SSI recipients, regardless of their country of birth or associated bank.
Moreover, if our results using sample data associated with one bank represented all banks, we estimate
our review would have identified an additional $289 million in overpayments.

Our report recommended that SSA reach out to DHS again, and if necessary, the Department of State,
to attempt to create a process that provides the necessary information to identify all (not just foreign-
born) SSI recipients outside the United States for longer than 30 days, which could include proposing
legislative changes. SSA agreed with our recommendation.

Termination of Disability Benefits Following a Continuing Disability Review Cessation
Determination
SSA conducts CDRs on DI beneficiaries and SSI recipients to determine whether they remain medically
eligible for disability payments. SSA terminates benefits when a CDR shows that the individual is no
longer disabled according to SSA's guidelines. SSA policy states that SSA should inform the individual
of its decision and discontinue payments 2 months after the cessation determination.

Our review identified DI beneficiaries and SSI recipients who received medical cessation determinations
during Calendar Years 2005 through 2010, but continued to receive monthly benefit payments more
than 2 months after the medical cessation determination. Specifically, our review found 30 percent
of sampled DI beneficiaries received improper benefit payments of approximately $48.9 million, and
16 percent of sampled SSI recipients received $34.7 million.

Our report recommended that SSA: (1) enhance the ability of the processing system to perform
automated terminations to ensure the timely termination of benefits following a medical cessation
determination; (2) remind employees to check cases to ensure termination actions were accomplished
timely; and (3) prioritize the identification of cases where disability payments have not been terminated
following medical cessation determinations to minimize improper payments.




12                                                                      October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                           Semiannual Report to Congress




Dually Entitled Beneficiaries Who Are Subject to the Windfall Elimination Provision (WEP) and
Government Pension Offset (GPO)
The Social Security Act includes two provisions that reduce benefits paid to individuals who receive a
pension based on Federal, State, or local government employment not covered by Social Security: the
WEP reduces a wage earner’s monthly retirement benefit and the GPO reduces monthly benefits for
spouses and widows.

Our audit found that SSA needs to improve the way it imposes WEP and GPO for dually entitled
beneficiaries. Our report recommended that SSA: (1) establish overpayments or record a WEP or
GPO exemption for the 104  beneficiaries identified by our audit; (2) determine whether there is a
cost-effective method to identify and correct the population of overpaid dually entitled beneficiaries
whose benefits should be reduced for WEP or GPO; (3) identify and, if appropriate, implement controls
to prevent and resolve pension discrepancies recorded on the Master Beneficiary Records of dually
entitled beneficiaries; and, (4) remind employees to review both the WEP and GPO provisions when
they receive pension information for dually entitled beneficiaries.

SSA agreed with all our recommendations.

Identifying and Monitoring Risk Factors at Hearing Offices
Our review found that the Office of Disability Adjudication and Review (ODAR) had created 19 reports
that measured hearing office performance using a single risk factor, such as average processing time
or pending cases per administrative law judge (ALJ). However, ODAR had not established a process to
rank hearing office performance using a combination of risk factors. In Fiscal Year 2011, ODAR began
developing an early monitoring system to measure ALJ performance based on a combination of risk
factors, such as number of dispositions, number of on-the-record decisions, and frequency of hearings
with the same claimant representative. A quality division then reviewed potential issues identified in the
ALJ monitoring system to ensure compliance with established policies and procedures. We reviewed
hearing office risk factors particular to ALJs to determine whether such information, when alone or
combined with ODAR’s ALJ monitoring system outcomes, would provide ODAR management with
additional information to assess hearing office management controls. We found large variances in
ALJ outcomes within and between hearing offices, indicating that further review of ALJ performance
variances in hearing offices, as well as a new hearing office monitoring system using a combination of
risk factors, would provide ODAR with additional tools to assess hearing office management controls.

Our report recommended and SSA agreed to: (1) ensure an ALJ early monitoring system becomes a
permanent part of management oversight and use this information to timely address potential anomalies
in the hearings process; and (2) create new management information reports combining ALJ-related
hearing office risk factors, which could include variances within those factors, and use this information
to identify potential processing and management problems at hearing offices.




October 1, 2012 - March 31, 2013                                                                       13




                                       Back to Table of Contents
Semiannual Report to Congress




Deceased Beneficiaries Who Had Different Dates of Death on the Social Security Administration’s
Numident and Payment Records
SSA matches data with Federal, State, and local agencies to record beneficiary deaths on its records
and create the Death Master File. Our review found that SSA needs to improve its controls to
ensure it resolves date of death discrepancies across all SSA records. We estimated that: (1) 9,795
deceased beneficiaries had unresolved date of death discrepancies between SSA data records; (2)
1,469 deceased beneficiaries had undetected improper payments of about $6.7 million; and (3) 8,326
deceased beneficiaries had an incorrect date of death.

Our report recommended that SSA: (1) analyze its death processing systems to ensure the date of death
is consistent between the Numident and MBR/SSR; (2) determine whether it can efficiently resolve the
population of deceased beneficiaries identified by our audit; and (3) develop a cost-effective method for
identifying and resolving beneficiary records that have a different date of death on the Numident and
MBR/SSR. This could involve periodic matches between the Numident and the MBR/SSR to detect and
correct discrepant dates of death. SSA agreed with all of our recommendations.

The Social Security Administration’s Development of Earnings Alerts for SSI Recipients
SSA’s computer systems send an electronic alert when earnings information reported by recipients
does not match information from other sources, like the Internal Revenue Service. SSA designed the
earnings alert system to ensure individual records are current and accurate.

Our review found that SSA’s development of SSI earnings alerts was not fully effective. We reviewed
cases that SSA had developed and those that it did not. Based on these results, we estimate that SSA
could have recorded approximately $110 million more in SSI overpayments if it had pursued earnings
alerts more carefully.

Our report recommended and SSA agreed to: (1) remind staff to develop alerts by taking all appropriate
actions to post earnings to the SSR accurately and transmit earnings data to the SSR when recorded in
Modernized Supplemental Security Income Claims System; and (2) evaluate whether it is cost-effective
to establish earnings alerts that are more likely to lead to payment changes.




14                                                                      October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                            Semiannual Report to Congress



INVESTIGATIONS
Our Office of Investigations examines and investigates allegations of fraud, waste, abuse, and
mismanagement in SSA programs and operations. These allegations may involve issues such as
benefit fraud, SSN misuse, violations by SSA employees, or fraud related to grants and contracts. Our
investigations often result in criminal or civil prosecutions or the imposition of CMPs against offenders.
These investigative efforts improve SSA program integrity by recovering funds and deterring those
contemplating fraud against SSA in the future. Our work in the areas of program fraud, enumeration
fraud, SSN misuse, and other Social Security-related fraud ensures the integrity of SSA programs.




                                     Investigative Results

                                                                10/1/12-3/31/13

                           Allegations Received                     59,745


                           Cases Opened                              3,963


                           Cases Closed                              4,077


                           Arrests                                    275


                           Indictments/Informations                   582


                           Criminal Convictions                       711


                           Civil/CMPs                                 134




October 1, 2012 - March 31, 2013                                                                       15




                                       Back to Table of Contents
Semiannual Report to Congress




                           Cases Opened by Program Category
                            October 1, 2012 - March 31, 2013




                            Cases Closed by Program Category
                             October 1, 2012 - March 31, 2013




16                                                             October 1, 2012 - March 31, 2013




                                   Back to Table of Contents
                                                                        Semiannual Report to Congress




                               Allegations Received by Source
                                                         10/1/12 – 3/31/13

                           SSA Employees                      28,150

                           Private Citizens                   16,812

                           Anonymous                          10,150

                           Law Enforcement                    1,513

                           Beneficiaries                      1,330

                           Public Agencies                    1,779

                           Other                                  11

                           TOTAL                              59,745




                             Allegations Received by Category
                                                         10/1/12 – 3/31/13

                           Disability Insurance               21,931

                           SSI Disability                     12,348

                           SSN Misuse                          5,142
                           Old-Age and Survivors
                                                              14,553
                           Insurance
                           Other                               3,018

                           Threats/Employee Safety                837

                           Employee-Related                       580

                           SSI Aged                            1,336

                           TOTAL                              59,745




October 1, 2012 - March 31, 2013                                                                  17




                                      Back to Table of Contents
Semiannual Report to Congress




Significant Investigative Activities

Disability Program Fraud
Man Hides Employment from SSA for Over 10 Years
Based on a phone call to our Fraud Hotline, our Richmond office investigated a 66-year-old man who,
for over 10 years, had received Title II (DI) benefits due to disorders of the back. Our investigation
confirmed that the man concealed from SSA that he was working construction and other manual labor
jobs, while receiving disability benefits. In October 2012, after the man pled guilty to theft of government
money, a U.S. District Court judge sentenced him to 2 years in prison and 3 years’ probation; and
ordered him to pay $265,673 to SSA.

Las Vegas Area Mortgage Lender Collects Disability Benefits
Our Las Vegas, Nevada office and the Department of Housing and Urban Development (HUD) OIG
conducted a joint investigation involving a 66-year-old former DI beneficiary who received benefits
due to chronic renal failure. From 1990 through 2010, the man concealed his employment as a
mortgage lender. In this capacity, the man defrauded distressed Las Vegas area homeowners by
falsely representing that he could refinance their “upside down” home loans. In December 2012, after
pleading guilty to theft of government funds and wire fraud, a U.S. District Court judge sentenced him
to 37 months in prison and 3 years’ supervised release; and ordered him to pay $208,106 to SSA and
$112,160 to various mortgage fraud victims.

Representative Payee Fraud
Parents Conceal Loss of Custody to Receive Benefits
Based on a referral from the Pittsburgh (Downtown), Pennsylvania SSA office, our Pittsburgh office
investigated a 44-year-old woman and her 79-year-old boyfriend, who were the representative payees
for their two children. In November 1994 and September 1995, the Children and Youth Services of
Pittsburgh removed the children from their care, at birth, because the children were born with pre-
natal drug exposure. Upon the children’s removal, their grandmother and great aunt adopted them;
however, neither of the parents reported the change in the children’s living arrangements to SSA.  For
approximately two years, the father continued to receive and negotiate the checks, and provide the
cash to the children’s mother. After he relinquished his responsibilities as representative payee, his
girlfriend continued to receive and negotiate the checks for approximately nine years, even though
the children were never in her custody. In February 2013, after a jury found the woman guilty of Social
Security fraud and theft of government funds, a U.S. District Court judge sentenced her to 2 years’
probation, and ordered her to pay $126,276 to SSA.

Representative Payee Conceals Income from Illegal Drug Distribution Operation
Acting on information from the U.S. Department of Justice/Bureau of Alcohol, Tobacco, Firearms, and
Explosives, our Lexington, Kentucky office investigated a 41-year-old SSI representative payee. From
March 2000 through February 2010, the payee concealed her income from an illegal drug distribution
enterprise while receiving SSI on behalf of five family members. In addition, the woman misused the SSI
benefits intended for these family members, in order to facilitate illegal drug transactions. In December
2012, after the woman pled guilty to theft of government funds, SSI fraud, and numerous drug-related


18                                                                        October 1, 2012 - March 31, 2013




                                        Back to Table of Contents
                                                                           Semiannual Report to Congress




charges, a U.S. District Court judge sentenced her to 16 years in prison and 5 years’ supervised
release; and ordered her to pay $150,337 to SSA.


SSA Fraud
Nursing Home Employee Steals over $500,000 in Residents’ SSA Benefits
Based on information provided by the Newberry (South Carolina) Police Department, our Columbia,
South Carolina office investigated a 59-year-old former employee of a local nursing home. From
approximately 2000 through 2009, the woman diverted SSA funds received by the nursing home for
their residents for her own personal use. As a result, the nursing home filed an insurance claim to
recover the lost SSA benefits. In October 2012, after the woman pled guilty to theft of government
funds, a U.S. District Court judge sentenced her to 30 months in prison and 3 years’ supervised release;
and ordered her to pay $543,940 to the nursing home’s insurance company.

SSI Recipient Defrauds Various Federal Agencies
Acting on a referral from the Department of Veterans Affairs (VA) OIG, our Philadelphia office investigated
a 60-year-old woman receiving Department of Housing and Urban Development (HUD) benefits and
SSI because of a back disorder. In April 1986, the woman’s grandmother died. From May 1986 through
November 2007, the woman converted to her own use her grandmother’s VA and Office of Personnel
Management (OPM) survivors’ benefits. The woman failed to report the receipt of these benefits to SSA
and HUD when she applied for benefits. In October 2012, after she pled guilty to theft of government
money, wire fraud, and Social Security fraud, a U.S. District Court judge sentenced the woman to 33
months in prison and 3 years’ supervised release; and ordered her to pay $16,764 to SSA, $161,757 to
OPM, $33,782 to VA, and $10,338 to HUD.

Employee Safety Investigations
Disgruntled Beneficiary Assaults Security Officer
After receiving a referral from the Gastonia, North Carolina SSA office, our Greensboro office investigated
a 47-year-old man receiving DI benefits due to affective disorders. In February 2011, the man visited
the Gastonia SSA office to discuss his non-receipt of benefits for several months in 2005. During his
interview with an SSA claims representative, the man became disruptive and assaulted the on-duty
security officer, punching him in the mouth. In October 2012, after the man pled guilty to assaulting
officers/employees of the U.S. Government, a U.S. District Court judge sentenced him to 130 months
in prison and 3 years’ supervised release.

Man Threatens Local SSA Office and Senior SSA Official for Appointing Representative Payee
Acting on information from the Auburn, Maine SSA office, our Manchester, New Hampshire office
investigated a 55-year-old man receiving DI benefits due to affective disorders. The man sent threatening
letters to an SSA Deputy Commissioner and to the Auburn SSA office. In response to SSA’s appointment
of a representative payee to manage his benefits, the man threatened to kill anyone who “messed with
his money." In November 2012, after the man pled guilty to mailing threatening communications, a U.S.
District Court judge sentenced him to 27 months in prison and 3 years’ supervised release.




October 1, 2012 - March 31, 2013                                                                        19




                                       Back to Table of Contents
Semiannual Report to Congress




Deceased Payee
Louisiana Woman Negotiates Deceased Father’s SSA Payments
Based on a referral from the Kenner, Louisiana SSA office, our Baton Rouge office investigated a
62-year-old Louisiana woman. We determined that the woman’s father died in October 1994, and that
SSA continued sending benefit payments to the address on the SSA record. From November 1994
through October 2011, the woman received and converted $261,665 of her deceased father’s SSA
payments for her personal use. In December 2012, after the woman pled guilty to theft of government
funds and forgery, a U.S. District Court judge sentenced her to 5 years’ probation and ordered her to
pay $261,665 to SSA.

Arizona Woman Pleads Guilty to Theft of Over $200,000 in Government Funds
After receiving a referral from the Phoenix, Arizona SSA office, our Phoenix office investigated the
71-year-old daughter of a retirement beneficiary who died in March 2001. From April 2001 through
January 2010, SSA continued to deposit benefits into the bank account of the deceased woman. In
addition, the Arizona woman’s stepfather died in January 2003, and his retirement and VA benefits
continued, via direct deposit, into the same bank account. During this time, the woman converted the
benefits issued to both of the deceased beneficiaries for her own use. In October 2012, after the woman
pled guilty to theft of government funds, a U.S. District Court judge sentenced her to 5 years’ probation,
and ordered her to pay $196,148 to SSA and $20,399 to VA.

SSN Misuse
California Woman Ordered to Pay Restitution to SSA and to a Former Employer
Based on an allegation submitted to our Fraud Hotline, our Los Angeles office investigated a 46-year-
old California woman for fraudulently receiving DI benefits for herself and her children. The woman
received benefits due to blindness and diabetes. From November 2002 through January 2011, the
woman concealed her employment as an office administrator by using her husband’s SSN. In addition,
the woman embezzled $636,550 from her former employer. In January 2013, after she pled guilty to
grand theft and identity theft, a California Superior Court judge sentenced her to 180 days in prison
and 5 years’ probation; and ordered her to pay $208,744 to SSA and $636,550 to her former employer.

Nevada Woman Creates a Second Identity to Receive Benefits
Based on a referral from the Nevada Department of Motor Vehicles, our Las Vegas office investigated
a 67-year-old woman who fraudulently received SSI, due to affective disorders, under two different
identities. The investigation revealed that the woman applied for a second SSN under the name of
the main character in novels she had written. She then applied for and received SSI under the second
identity while also receiving SSI under her true identity. For 20 years, the woman received $158,122
in SSI payments. In January 2013, after the woman pled guilty to theft of government funds and SSN
misuse, a U.S. District Court judge sentenced her to 10 months in prison (suspended), 4 months’ home
confinement and 3 years’ probation; and ordered her to pay $158,122 to SSA.




20                                                                       October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                           Semiannual Report to Congress




Employee Fraud
SSA Benefit Authorizer Fraudulently Collects Disability Benefits
Based on a referral from SSA’s Office of Central Operations, our Baltimore office investigated a 50-year-
old SSA employee who also received DI benefits. From 1996 through August 2009, the man concealed
his work and earnings, while receiving disability benefits. In addition, the employee fraudulently received
Medicare and Medicare low-income subsidy benefits. From June 2007 through January 2010, SSA
employed the man as a benefit authorizer. In January 2013, after a jury found him guilty of Social
Security and Medicare fraud, a U.S. District Court judge sentenced the man to 2 years in prison and
3 years’ supervised release; and ordered him to pay $121,790 to SSA and $32,443 to Medicare. SSA
terminated his employment in January 2010.

Attorney-Advisor Conceals Receipt of SSI
Acting on a referral from the St. Louis (Southside), Missouri SSA office, our St. Louis office investigated
a 37-year-old attorney-advisor employed by the SSA Office of Disability Adjudication and Review
(ODAR) National Hearing Center. The employee received SSI due to blindness. The man attended law
school and graduated in 2008. He subsequently applied for employment with ODAR in March 2010;
however, he failed to notify SSA of his employment. In January 2013, after pleading guilty to theft of
government property, a U.S. District Court judge sentenced him to 5 years’ probation and ordered him
to pay $9,244 to SSA. The employee resigned from SSA in June 2011.

Former SSA Employee Convicted of Possession of Child Pornography
Based on information provided by SSA’s ODAR, our Chicago office investigated a 47-year-old SSA
teleservice representative who posessed child pornography. We determined that during work hours,
the employee accessed sexually explicit websites. After his arrest in August 2012, the Cook County
(Illinois) Circuit Court indicted the employee on 27 related charges. In January 2013, after the employee
pled guilty to aggravated possession of child pornography, a Cook County Circuit Court judge sentenced
him to 30 months’ probation and ordered him to pay a $2,834 fine. SSA terminated his employment in
December 2011.




October 1, 2012 - March 31, 2013                                                                        21




                                        Back to Table of Contents
Semiannual Report to Congress




Value Attained Through Investigations
During this reporting period, the efforts of our investigators yielded significant results arising from the
successful prosecution of cases that we developed. Our investigators achieved over $254 million in
monetary accomplishments, including over $52 million in SSA recoveries, restitution, fines, settlements,
and judgments; and over $201 million in projected savings from investigations resulting in the suspension
or termination of benefits. The following table represents our efforts nationwide to recover SSA funds
paid in fraudulent benefits or through other illegal actions.




                                SSA FUNDS REPORTED

                                                     10/1/12 – 3/31/13


                              Recoveries                $29,022,264


                                 Fines                  $3,008,188

                             Settlements/
                                                        $1,393,058
                             Judgments

                              Restitution               $19,128,387


                          Estimated Savings            $201,795,928


                                 TOTAL                 $254,347,825




Cooperative Disability Investigations Program
The CDI program continues to be one of our most successful joint initiatives, contributing to the integrity
of SSA’s State disability programs. CDI is a joint effort of the OIG, SSA, State Disability Determination
Services (DDS), and State/local law enforcement personnel. Established in 1998 with units in just five
states, the CDI program now has 24 units in 21 states. The units work to obtain sufficient evidence to
identify and resolve issues of fraud and abuse related to initial and continuing disability claims.
The following CDI case summaries highlight major investigations we conducted during this reporting
period that enhanced SSA program integrity and the reliability of SSA’s operations.

22                                                                        October 1, 2012 - March 31, 2013




                                        Back to Table of Contents
                                                                         Semiannual Report to Congress




CDI Case Highlights
Salt Lake City Photographer Falsifies Disability Claim
The Salt Lake City CDI Unit investigated a 35-year-old woman who applied for disability benefits due
to Lyme disease, chronic fatigue, pain, depression, and fibromyalgia. On her application, the woman
indicated that she stopped working, and that most days she received treatment from a clinic or a
chiropractor for several hours a day. SSA’s ODAR referred this case to the CDI unit due to questions
arising during the woman’s disability hearing. ODAR indicated that the woman appeared to be more active
than she admitted.Our investigation revealed that the woman operated a photography business, hosted
a radio show at a local Internet-based radio station, and worked as an adjunct professor of photography
at a local university. ODAR denied the woman’s appeal. After she pled guilty to an attempted false
statement or representation relating to medical benefits, a third-degree felony in the State of Utah, a
Salt Lake County District Court judge sentenced the woman to a suspended term of one year, 6 months
of probation, and a suspended fine of $2,500.


Self-Employed Legal Consultant Fraudulently Collects Disability Benefits
The Los Angeles CDI Unit investigated a 40-year-old woman receiving SSI due to depression, anxiety,
and pain. The woman alleged that she spent her days in bed, and was too depressed to leave her home
or socialize. A private citizen made a fraud allegation that the woman was not disabled, and the CDI
unit opened an investigation.
The investigation revealed that the woman was functioning at a higher level than alleged. To receive
Federal subsidized housing assistance, she reported self-employment as a legal consultant for a
university. In addition, the woman engaged in self-employment as a legal consultant on television
shows, which included an appearance on the “Dr. Phil” show. The California DDS denied the woman’s
claim retroactively to the date her disability allegedly began; and we are pursuing a CMP against her.

Oregon Businesswoman Attempts to Collect Disability Benefits
The Salem CDI Unit investigated a 51-year-old woman who applied for DI and SSI alleging attention
deficit-hyperactivity disorder and headaches. Though born in the United States, she claimed not to
speak English. Based on her actions during multiple evaluations, her doctor had determined that she
met the disability criteria for mild retardation. During a quality assurance review of her claim, a
reviewer noted inconsistencies between the woman’s reported functioning, her 25-year employment
history, and other medical records. The claim was returned to the Oregon DDS for review, and the
DDS referred it to the Salem CDI Unit.

Investigators discovered that the woman owned and managed several rental homes, and was a well-
known businesswoman, having operated a brothel, a second-hand store, and a taco truck, before
starting her current restaurant business, a walk-up Mexican food stand located a few blocks from a
local SSA office. Investigators interviewed persons who confirmed the woman spoke English. In
addition, she had filed numerous eviction orders related to her rental properties. Copies of these
records revealed that she had completed the forms in English.The Oregon DDS denied the woman’s
application for DI and SSI claims. In addition, we are considering pursuing a CMP against her for
false statements.



October 1, 2012 - March 31, 2013                                                                    23




                                      Back to Table of Contents
Semiannual Report to Congress




The following table highlights the successes of the CDI program, which yielded almost $170 million in
SSA program savings during this reporting period:

                             Cooperative Disability Investigations Program Results
                                   October 1, 2012 through March 31, 2013
                                                                                                     Cases
                                                                  Allegations                                                                                               Non-SSA
                           State                                                                     Denied/                       SSA Savings1
                                                                   Received                                                                                                 Savings2
                                                                                                     Ceased
       Arizona                                                           149                              59                                   $5,353,347                $3,937,123
       California3                                                       459                             192                                 $13,640,173                $13,345,207
       Colorado                                                          113                              91                                   $8,201,375                $5,392,315
       Florida                                                           108                              79                                   $6,297,288                $4,624,129
       Georgia                                                           162                              98                                   $7,467,151                $5,015,498
       Illinois                                                          111                              74                                   $5,611,139                $3,504,074
       Kentucky                                                           71                              36                                   $2,784,562                $1,756,499
       Louisiana                                                         132                              75                                   $6,110,033                $4,168,428
       Massachusetts                                                     113                              70                                   $6,308,750               $5,264,817
       Mississippi                                                        49                              31                                   $1,981,215               $1,260,491
       Missouri        4
                                                                         286                             172                                 $13,875,542                $9,542,432
       New Jersey5                                                        31                               3                                      $270,375                $155,231
       New York                                                           45                              25                                   $2,412,032               $1,903,914
       Ohio                                                              314                             170                                 $13,398,538               $10,961,804
       Oklahoma                                                          139                              83                                   $7,215,672               $3,827,707
       Oregon                                                            161                             143                                 $12,664,349                $8,713,277
       South Carolina                                                    184                             146                                 $11,803,622                $8,145,195
       Tennessee                                                          74                              42                                   $3,727,027               $2,620,526
       Texas     6
                                                                         259                             179                                 $15,315,780               $11,227,017
       Utah                                                              144                              72                                   $6,126,827               $3,657,924
       Virginia                                                          152                             112                                 $10,093,111                $7,840,076
       Washington                                                        190                             116                                   $9,152,817               $5,659,323
       Total (10/1/12 – 3/31/13)                                       3,446                           2,068                              $169,810,725                $122,523,007
       1 SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations.  When a CDI Investigation supports the cessation /

       termination of an in-pay case, SSA program savings are calculated using a formula that takes into account the average number of years that SSA has determined that a person remains

       on its rolls, as well as the total percentage of CDRs that resulted in a suspension, termination, or reduction in benefits due to CDI investigations.

       2 Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation, using estimated or actual benefit

       amounts documented by the responsible agency.

       3 California has two units, one in Los Angeles, and the other in Oakland.

       4 Missouri has two units, one in Kansas City and the other in St. Louis.

       5 The Iselin, New Jersey CDI Unit became non-operational during this reporting period.

       6 Texas has two units, one in Dallas, and the other in Houston.




24                                                                                                                                           October 1, 2012 - March 31, 2013




                                                                         Back to Table of Contents
                                                                           Semiannual Report to Congress



LEGAL

Section 1140 Enforcement
The OIG is authorized to enforce Section 1140 of the Social Security Act, which protects the public by
prohibiting the misuse of SSA words and symbols in misleading advertisements, solicitations, or other
communications. It also prohibits the reproduction and sale of SSA forms without authorization.

Misleading communications running afoul of Section 1140 take many forms, such as deceptive paper-
based mailers, misleading attorney advertising, and more recently (at an alarming rate), misleading
Internet solicitations, including the Internet-based sale of otherwise free Social Security forms. Internet
scammers, in the pursuit of financial gain and/or the accumulation of personally identifiable information
(PII), utilize misleading domain names, develop misleading websites, and place deceptive advertisements
with search engines to create a false sense that they are somehow associated with SSA.


Using authority delegated by the Commissioner of Social Security, we aggressively enforce Section
1140. The statute provides for up to $5,000 in CMPs for each violation, and $25,000 for a broadcast
or telecast. Penalties collected for violations of Section 1140 are deposited into SSA’s Old Age and
Survivors Trust Fund.



                                          SECTION 1140

                                                                  10/1/12– 3/31/13

                     Cases Reviewed                                       81

                     Cases Closed - No Violation of
                                                                          6
                     Section 1140

                     Cases Successfully Resolved
                     (Voluntary Compliance and                            41
                     Settlement Agreement)

                     Penalties Imposed                                 $52,000




October 1, 2012 - March 31, 2013                                                                        25




                                        Back to Table of Contents
Semiannual Report to Congress




Section 1140 Case Highlights
Virginia Company Agreed to Pay CMP to Settle Website Claim
Names for Sale, LLC (doing business as SocialSecurityAdministration.org), of Richmond, Virginia,
agreed to pay a CMP of $35,000 to settle our claim that the company violated Section 1140. The
company used the domain name for its website to generate leads for its sponsored listings and other
companies offering Social Security-related services. The domain name SocialSecurityAdministration.
org and the related website contained the header banner “Social Security Administration” and images
of the U.S. Capitol Building, the Statue of Liberty, and the U.S. flag to convey the false impression
of a connection with SSA. Without admitting that it violated Section 1140, Names for Sale, LLC
voluntarily shut down the website and agreed to pay a CMP, discontinue its use of the domain name
SocialSecurityAdministration.org, and comply with Section 1140 for future website operations.

New York Company Agrees to Pay CMP to Settle Alleged Violation
Site Central, LLC (doing business as GovDatalink.org), of New York City, agreed to pay a $5,000
CMP to settle our claim that the company violated Section 1140. Site Central used the display domain
name SSN.GovDatalink.org and destination website domain name govdatalink.org/SSN-Records
for its website offering public records searches. Both domain names’ use of an official-looking eagle
emblem, the header banner “Gov DATALINK,” and the bolded caption “Instant Access to SSN Records”
conveyed the false impression of a connection with SSA. Without admitting that it violated Section
1140, Site Central voluntarily redesigned its website and agreed to pay a CMP and discontinue using
both domain names.

Two Related Texas Companies Agree to Pay CMP to Settle Website Claim
The common owners of Ardykay, Inc. (doing business as SocialSecurityandDisability.com) and Four
Seasons Marketing (doing business as SocialSecurityGovBenefits.com), located in Frisco, Texas,
agreed to pay a $12,000 CMP to settle our claim that their companies violated Section 1140. Ardykay’s
use of the header phrase “Www Ssi Gov” in search engine advertisements placed with Yahoo and
Microsoft/Bing promoting one of its websites conveyed the false impression of a connection with SSA.
In addition, Four Seasons Marketing’s use of the domain name SocialSecurityGovBenefits.com and
the related website’s use of images of U.S. flags, an American bald eagle, the U.S. Capitol Building,
and the header banner “Social Security Government Benefits,” also conveyed the false impression of
a connection with SSA.

Without admitting that they violated Section 1140, the common owners of the two companies agreed
to pay a CMP, discontinue using the violative header in advertising, cease using the domain name
SocialSecurityGovBenefits.com (and 16 other domain names), and either shut down or redesign
SocialSecurityandDisability.com to comply with Section 1140.




26                                                                    October 1, 2012 - March 31, 2013




                                     Back to Table of Contents
                                                                         Semiannual Report to Congress




Section 1129 Enforcement
The OIG's CMP program, targeting violations of Section 1129 of the Act, maximizes available resources
and creates a positive return on investment. Section 1129 authorizes a CMP against those who make
false statements or representations in connection with obtaining or retaining benefits or payments under
Titles II, VIII, or XVI of the Act. In addition, CMPs may be imposed against representative payees for
wrongful conversion of payments, or against individuals who knowingly withhold a material fact from
SSA. After consultation with DOJ, we are authorized to impose penalties of up to $5,000 for each false
statement, representation, conversion, or omission. A person may also be subject to an assessment,
in lieu of damages, of up to twice the amount of any resulting overpayment. The following table and
cases highlight the value achieved through our Section 1129 efforts for this reporting period.




                                          SECTION 1129

                                                                10/1/12– 3/31/13

               Cases Received                                         1,152
               Cases Initiated                                         240
               Cases Closed                                            533
               Penalties and Assessments
                                                                   $5,315,903
               Imposed
               Number of Hearings Requested                             24
               Cases Successfully Resolved
               (settled case, favorable judgment,                      106
               or penalty imposed)




October 1, 2012 - March 31, 2013                                                                     27




                                      Back to Table of Contents
Semiannual Report to Congress




Section 1129 Case Highlights
Federal Employee Physician Worked While Collecting Disability Benefits
A medical doctor applied for DI after being diagnosed with cancer. However, he failed to notify SSA
when he returned to work as a contract doctor at a Federal agency and later as a Federal employee.
An OIG investigation revealed that the doctor wrongfully received $32,223 in benefits between June
2006 and July 2008. We imposed a $60,000 penalty and a $32,223 assessment, for a total recovery of
$92,223.

College President Failed to Report Daughter’s Change in Living Arrangements
A college president, serving as her child’s representative payee, failed to notify SSA when her daughter
began living with, and was financially supported by, the daughter’s husband. Due to the failure to notify
SSA that her daughter’s living arrangements had changed, the college president wrongfully received
$34,047 in SSI. We entered into a settlement agreement including a $92,000 penalty and a $34,047
assessment, for a total recovery of $126,047.

Georgia Woman Fraudulently Takes Dead Woman’s Benefits
A Georgia woman, serving as representative payee for a deceased beneficiary, failed to report the
beneficiary’s death in November 2006 and continued to accept and use her DI benefits for 33 months.
By failing to report her death and accepting those benefits for nearly three years, the subject committed
33 separate material withholdings. We imposed a $66,000 penalty and a $35,634 assessment, for a
total recovery of $101,634.

Hawaii Man Failed to Disclose $1 Million in Assets While Receiving SSI
A Hawaii man, whose total assets equaled $1.75 million during an eight-year period, fraudulently re-
ceived more than $24,000 in SSI while hiding these assets from SSA. In order to steal less than $100
per month from the needs-based SSI program, the man concealed his ownership of a posh condomin-
ium, stock, bonds, and property in other states. After a Departmental Appeals Board hearing, the ALJ
upheld our $140,000 penalty and $7,658 assessment, for a total recovery of $147,658.

New Hampshire Realtor Concealed Work Activity
A New Hampshire realtor applied for DI and failed to report that she returned to work as a realtor a year
after applying for disability benefits. The subject owned a successful real estate brokerage company
while simultaneously collecting DI. Although the subject had numerous opportunities to report her work
activity, she withheld the information for 42 months. We negotiated a settlement with the subject result-
ing in a penalty of $5,000 and a $67,585 assessment, for a total recovery of $72,585.

Minnesota Man Concealed Work Activity by Using Wife’s SSN for 49 Months
A Minnesota man failed to report his work activity to SSA while collecting disability benefits. He also
actively conspired to conceal his work activity by requesting that his employer pay his salary to his
wife, using her name and SSN, instead of his own. His fraudulent actions resulted in an overpayment
of $60,284. We negotiated a settlement including a $51,000 penalty and a $60,284 assessment, for a
total recovery of $111,284.




28                                                                      October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                           Semiannual Report to Congress



SUPPORT

Budget
For FY 2013, under sequestration, our annual appropriation is $96.9 million, which supports an
estimated end-of year staffing level of 560. The salaries and benefits of employees account for 90
percent of overall spending. The remaining 10 percent is used for necessary expenses such as travel,
training, communications, reimbursable work authorizations, and general procurements, as well as to
provide for basic infrastructure needs such as rent and interagency service agreements. We use our
appropriation each year in support of our efforts to meet and exceed the goals set forth in the OIG
Strategic Plan for Fiscal Years 2011 – 2015. The goals and accomplishments measured in the Strategic
Plan are also published in SSA’s Annual Congressional Budget Justification. As of the publication of
this report, we were still assessing the impact of sequestration on our operations. We will include this
information in our next Semiannual Report to Congress, for the latter half of FY 2013.


Human Resource Planning and Management
We actively pursue and work to retain the best possible employees. First, our staffing plan forecasts
employee departures based on historical trends and human resources data, which allows us to
establish optimal timeframes for recruiting new employees. Moreover, OIG managers monitor staffing
to ensure that vacant positions are filled promptly, ensuring that OIG components have the ability to
fulfill their respective missions.

Our human resource specialists and recruiters participate in national and virtual career fairs to attract
the best and brightest talent to OIG. Ongoing evaluation and updating of our recruitment displays
and brochures continue to enhance our outreach efforts. These events enable us to actively recruit
underrepresented groups in the labor market, enabling us to maintain a truly diverse workforce. Once
we identify the best candidates, we utilize a structured interview process to equitably assess candidates’
skills and qualifications. This process has been instrumental in predicting the future success of new
employees.

Our succession planning and knowledge-transfer strategies focus on creating a culture to ensure
smart recruitment, tailored internal training, effective leadership transition efforts, and reciprocal
developmental programs. In addition to participating with agency developmental programs, OIG
continues to expand current developmental programs to utilize knowledge transfer practices, bridge
knowledge gaps, and drive innovation for organizational performance improvement.


Information Technology
During this reporting period, OIG Information Technology (IT) specialists continued working to update
and improve the OIG systems environment. This includes migration to a new infrastructure platform to
provide redundancy and failover for OIG applications and data including our National Investigative Case
Management System as well as an upgrade of our Business Process Management software, which
provides workflows and approval chains for automated OIG business processes. We also continued the

October 1, 2012 - March 31, 2013                                                                       29




                                       Back to Table of Contents
Semiannual Report to Congress




effort to implement business intelligence software to provide enhanced management information to OIG
Executives and managers. Once these upgrades have been completed, we will continue to automate our
existing business processes in an effort to decrease costs and increase efficiency. During this reporting
period, we continued to expand our telework program with plans for additional expansion by the end
of the year. We continue to make improvements to our telework infrastructure for increased capacity
and improved performance. The technologies we implemented allow for a productive remote workforce
without sacrificing the security of sensitive information. These steps align the OIG with the goals and
requirements of the Telework Enhancement Act of 2010.

Finally, our IT staff analyzes industry trends to find new technologies that may enhance our business
processes. During this period, we have continued to expand the use of virtual technologies and have
begun to pilot virtual desktop infrastructure for both internal and remote use, to reduce hardware and
deployment costs, and enhance data security. We have also utilized virtualization to decrease the number
of physical servers in use, which has reduced power consumption and increased system uptime. OIG
IT specialists continue to meet the challenge of providing a variety of IT support services for more than
70 OIG offices throughout the country.

Allegation Management and Fugitive Enforcement Division
The OIG’s Fugitive Felon Enforcement Program identifies individuals reported to have outstanding felony
arrest warrants and outstanding warrants for parole and probation violations. SSA shares its location
information for wanted felons with local law enforcement agencies to assist in their apprehension efforts.
In turn, these agencies advise SSA on the disposition of the warrant so SSA can take appropriate
administrative action on the benefits.
Our data-sharing efforts with law enforcement agencies contributed to the arrest of 158 subjects during
the reporting period, and more than 95,500 arrests since the program’s inception in 1996. The following
are some examples of fugitive felon activities during the past six months:
Case Highlights
•    OIG agents and members of the U.S. Marshals Service in Lowell, Massachusetts arrested an SSA
     beneficiary wanted on a warrant dated July 2012 after an Indictment by a Federal Grand Jury sitting
     in the Southern District of New York. The Indictment charged the SSA beneficiary with Conspiracy to
     Distribute and to Possess with Intent to Distribute Crack Cocaine. The SSA beneficiary was Indicted
     along with twenty-four other co-conspirators. The felony warrant identified members of a criminal
     organization based in two Bronx housing developments that were involved in drug and gun crimes.
•     OIG agents and members of the U.S. Marshals Pacific Northwest Violent Offender Task Force and
     the Spokane Police in Spokane, Washington arrested an SSA beneficiary wanted on a warrant dated
     November 2012 for Murder 1st Degree, Conspiracy, Mutilating a Human Body, Concealing a Human
     Body, Tampering with Evidence, and Hindering Prosecution. This felony warrant was issued by the
     Apache County Superior Court in Arizona (AZ).
•    OIG agents and police officers of the Boston Police Department assigned to the U.S. Marshals
     Service Sex Offender Investigations Branch arrested an SSA beneficiary wanted on two warrants.
     One warrant dated August 2012, Failing to Appear to answer charges of Possession of a Class B
     Drug (Cocaine) and another dated November 2012, Failing to Register as a Sex Offender.
30                                                                       October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
Reporting Requirements
              and
        Appendices




   Back to Table of Contents
Semiannual Report to Congress




           Reporting Requirements
           This report meets the requirements of the Inspector General Act of 1978, as
           amended, and includes information mandated by Congress.



                 Section                           Requirement                             Page(s)

               Section 4(a)(2)    Review of legislation and regulations                    Appendix I


               Section 5(a)(1)    Significant problems, abuses, and deficiencies


               Section 5(a)(2)    Recommendations with respect to significant
                                  problems, abuses, and deficiencies
                                  Recommendations described in previous
               Section 5(a)(3)
                                  Semiannual Reports on which corrective actions are     Appendix F&G
                                  incomplete
               Section 5(a)(4)    Matters referred to prospective authorities and the
                                  prosecutions and convictions that have resulted

              Section 5(a)(5) &   Summary of instances where information was
                                                                                              N/A
               Section 6(b)(2)    refused


               Section 5(a)(6)    List of audits                                           Appendix B


               Section 5(a)(7)    Summary of particularly significant reports


                                  Table showing the total number of audit reports and
               Section 5(a)(8)                                                             Appendix B
                                  total dollar value of questioned costs

                                  Table showing the total number of audit reports and
               Section 5(a)(9)                                                             Appendix B
                                  total dollar value of funds put to better use

                                  Audit recommendations more than 6 months old for
              Section 5(a)(10)                                                             Appendix B
                                  which no management decision has been made

                                  Significant management decisions that were revised
              Section 5(a)(11)                                                                N/A
                                  during the reporting period

                                  Significant management decisions with which the
              Section 5(a)(12)                                                             Appendix D
                                  Inspector General disagrees




32                                                                              October 1, 2012 - March 31, 2013




                                         Back to Table of Contents
                                                                                        Semiannual Report to Congress




        Appendix A: Resolving Audit Recommendations
        The following chart summarizes SSA’s responses to our recommendations for the
        recovery or redirection of questioned and unsupported costs. Questioned costs are those
        costs that are challenged because of a violation of law, regulation, etc. Unsupported
        costs are those costs that are questioned because they are not justified by adequate
        documentation. This information is provided in accordance with P.L. 96-304 (the
        Supplemental Appropriations and Recession Act of 1980) and the Inspector General
        Act of 1978, as amended.

                        Reports with Questioned Costs for the Reporting Period
                                       October 1, 2012 - March 31, 2013
                                                                               Value              Value
                                                              Number
                                                                             Questioned        Unsupported
              A.	For which no management
                 decision had been made by the
                                                                  17             $77,006,197       $70,611
                 commencement of the reporting
                 period.

              B.	Which were issued during the
                                                                 16a,b       $733,306,987        $6,707,811
                 reporting period.


                	Subtotal (A + B)                                 33         $810,313,184        $6,778,422


              	 Less:


              C.	For which a management decision
                                                                  18         $328,499,230               $0
                 was made during the reporting period.


              	 i.	 Dollar value of disallowed costs.             15         $305,981,290               $0


              	 ii.	 Dollar value of costs not disallowed.        3              $22,517,940            $0

              D.	For which no management decision
                 had been made by the end of the                  16         $481,813,954        $6,778,422
                 reporting period.


        a.
              See Reports with Questioned Costs in Appendix B of this report.­
        ­b.
              One report has two monetary recommendations; one recommendation is reflected in section Ci and
               one recommendation is reflected in section D.




October 1, 2012 - March 31, 2013                                                                                  33




                                               Back to Table of Contents
Semiannual Report to Congress




           The following chart summarizes SSA’s response to our recommendations that funds
           be put to better use through cost avoidances, budget savings, etc.


            Reports with Recommendations that Funds Be Put to Better Use
                  Reporting Period October 1, 2012 - March 31, 2013

                                                                              Number          Dollar Value
             A. For which no management decision had been
               made by the commencement of the reporting                          8           $3,321,944,092
               period.
             B.	 Which were issued during the reporting period.                  6a              $52,499,193


             		       Subtotal (A + B)                                           14           $3,374,443,285


               	Less:

             C.	 For which a management decision was made
               during the reporting period.

              i. Dollar value of recommendations that were
                                                                                  5           $2,460,684,615
                agreed to by management.

               (a) Based on proposed management action.                           5           $2,460,684,615


               (b) Based on proposed legislative action.                          0                          $0

              ii.	 Dollar value of costs not agreed to by
                                                                                  3            $362,635,540
                management.

             		       Subtotal (i + ii)                                           8           $2,823,320,155

             D.	For which no management decision had been
                                                                                  6            $551,123,130
                made by the end of the reporting period.


             ­a.
                   See Reports with Funds Put to Better Use in Appendix B of this report.




34                                                                                    October 1, 2012 - March 31, 2013




                                              Back to Table of Contents
                                                                              Semiannual Report to Congress




       Appendix B: Reports Issued
                          Reports with Non-Monetary Findings
                             October 1, 2012 – March 31, 2013
        Audit Number                             Report                              Issue Date

                         Accuracy of the Social Security Administration’s
        A-08-12-11280                                                                10/3/2012
                         Numident

                         Administrative Costs Claimed by the Connecticut
        A-01-12-12104                                                                10/18/2012
                         Disability Determination Services

                         Monitoring Controls for the Consent Based Social
        A-03-12-11201                                                                10/25/2012
                         Security Number Verification Program

                      Fiscal Year 2012 Inspector General Statement on the
        A-02-13-13041 Social Security Administration's Major Management and          11/8/2012
                      Performance Challenges

                         The Social Security Administration's Financial Report for
        A-15-12-11286                                                                11/8/2012
                         Fiscal Year 2012

                      The Social Security Administration's Compliance with
        A-14-12-12120 the Federal Information Security Management Act of             11/15/2012
                      2002 for Fiscal Year 2012

                         Controls over Payments Made to Claimant
        A-05-12-11239                                                                12/4/2012
                         Representatives at the Hearings Level
                         Benefit Payments Managed by Representative Payees
        A-13-12-11245    of Children in Pennsylvania's State Foster Care             12/4/2012
                         Programs
        A-06-10-20155 Noncitizens Issued Multiple Social Security Numbers            12/10/2012

                         Training and Development of Hearing Office Group
        A-12-12-11240                                                                12/10/2012
                         Supervisors

                      Congressional Response Report: The Social Security
        A-13-12-22143 Administration’s Compliance with Equal Employment              12/11/2012
                      Opportunity Commission Decisions

                      Direct Deposit Changes Initiated Through Financial
                      Institutions and the Social Security Administration's
        A-14-12-21271                                                                12/20/2012
                      Internet and Automated 800-Number Applications
                      (Limited Distribution)
                         Controls over the Enrollment Process with the Direct
        A-15-12-21273                                                                12/21/2012
                         Express® Debit Card Program (Limited Distribution)




October 1, 2012 - March 31, 2013                                                                        35




                                        Back to Table of Contents
Semiannual Report to Congress




                                Reports with Non-Monetary Findings
                                 October 1, 2012 – March 31, 2013
            Audit Number                              Report                              Issue Date
                          The Social Security Administration's Reporting of High-
            A-15-13-13068 dollar Overpayments Under Executive Order 13520 in              12/28/2012
                          Fiscal Year 2012
                          Congressional Response Report: Memorandum
                          of Understanding between General Services
            A-15-13-23043                                                                 12/28/2012
                          Administration and Social Security Administration for
                          Space and Service
                             Individuals Hiding Self-Employment Income to Receive
            A-07-12-11268                                                                 1/11/2013
                             Disability Insurance Benefits

                             Controls over Direct Deposit Changes Initiated in Field
            A-06-12-22101                                                                 1/23/2013
                             Offices (Limited Distribution)
                             Identifying and Monitoring Risk Factors at Hearing
            A-12-12-11289                                                                 1/24/2013
                             Offices
                             Single Audit of the Hawaii Department of Human
            A-77-13-00001                                                                 1/25/2013
                             Services for the Fiscal Year Ended June 30, 2011

                             Access to Social Security Administration Data at the
             A-15-11-01127                                                                1/29/2013
                             Disability Determination Services

                             Congressional Response Report: The Social Security
            A-01-13-23051                                                                  2/1/2013
                             Administration's Disability Research Consortium

                             Administrative Costs Claimed by the Texas Disability
            A-06-12-11283                                                                  2/4/2013
                             Determination Services

                             Single Audit of the State of Oklahoma for the Fiscal Year
            A-77-13-00002                                                                  2/7/2013
                             Ended June 30, 2011

                             Sanctioned Medical Providers and Medical Evidence of
            A-01-13-23064                                                                  2/8/2013
                             Record

                             Overall Processing Times for 2010 Childhood                   2/8/2013
            A-04-12-11230
                             Supplemental Security Income Claims
                          Congressional Response Report: Interagency
            A-05-12-22144 Agreements with the Office of Personnel Management              2/14/2013
                          for Administrative Law Judge Services

                             Single Audit of the State of North Carolina for the Fiscal
            A-77-13-00003                                                                 2/26/2013
                             Year Ended June 30, 2011
                             Single Audit of the State of Nebraska for the Fiscal Year
            A-77-13-00004                                                                 2/26/2013
                             Ended June 30, 2011




36                                                                          October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                              Semiannual Report to Congress




                             Reports with Non-Monetary Findings
                               October 1, 2012 – March 31, 2013
           Audit Number                             Report                              Issue Date

           A-15-12-12115   Performance Indicator Audit: Hearing Requests                2/27/2013

                           Single Audit of the State of Wisconsin for the Fiscal Year
           A-77-13-00005                                                                2/27/2013
                           Ended June 30, 2011
                         Summary of Inspectors General Compliance with the
           A-01-13-23031 Improper Payments Elimination and Recovery Act of               3/1/2013
                         2010
                           Accuracy of Quarterly Wage Data and Their Impact on
           A-03-12-11213                                                                3/12/2013
                           Social Security Benefits

                           Single Audit of the State of Iowa for the Fiscal Year
           A-77-13-00006                                                                3/13/2013
                           Ended June 30, 2011

                           Hearing Office Case Rotation Among Administrative
           A-12-12-11274                                                                3/14/2013
                           Law Judges
                         Department of Labor Office of Inspector General Peer
           A-13-13-23012                                                                3/15/2013
                         Review
                         The Social Security Administration's Compliance with
                         the Improper Payments Elimination and Recovery
           A-15-13-13067                                                                3/15/2013
                         Act of 2010 in the Fiscal Year 2012 Performance and
                         Accountability Report
                           Single Audit of the State of New Jersey for the Fiscal
           A-77-13-00007                                                                3/21/2013
                           Year Ended June 30, 2011
                           National Support Center Cost Savings (Limited
           A-14-12-12107                                                                3/29/2013
                           Distribution)




October 1, 2012 - March 31, 2013                                                                        37




                                       Back to Table of Contents
Semiannual Report to Congress




                                   Reports with Questioned Costs
                                  October 1, 2012 – March 31, 2013

           Audit Number    Issue Date                         Report                         Dollar Amount

           A-01-11-01120   10/3/2012     Beneficiaries Incorrectly Identified as Prisoners        $59,706

                                         Claimant Representative Fees Paid but Not
           A-04-11-11102   10/5/2012                                                           $21,005,047
                                         Withheld from DI Past-Due Benefits
                                         Supplemental Security Income Recipients
           A-01-11-01135   10/12/2012    Whose Medicare Benefits Were Terminated Due             $405,357
                                         to Death
                                         Supplemental Security Income Applicants with
           A-02-10-20128   10/26/2012    Earnings Received After Their Disability Onset         $5,597,500
                                         Dates and Before Favorable Hearing Decisions

                                         Termination of Disability Benefits Following
           A-07-12-11211   11/1/2012     a Continuing Disability Review Cessation              $83,583,935
                                         Determination

                                         Supplemental Security Income Recipients
           A-01-12-21238   12/10/2012                                                          $44,553,360
                                         Eligible for, or Receiving, Russian Pensions

                                         Deceased Beneficiaries Who Had Different
                                         Dates of Death on the Social Security
           A-09-12-11220   12/10/2012                                                          $6,707,811
                                         Administration's Numident and Payment
                                         Records

                                         Accumulated Funds Payable to Beneficiaries or
           A-09-12-21236   12/11/2012                                                         $29,935,853
                                         Their Representative Payees

                                         The Social Security Administration's
           A-02-11-11185   12/20/2012    Development of Earnings Alerts for                   $110,142,700
                                         Supplemental Security Income Recipients
                                         Personnel Costs and Hiring Practices of the
           A-04-12-22135   12/20/2012                                                              $7,097
                                         Georgia Disability Adjudication Services

                                         Childhood Disability Beneficiaries with an
           A-09-11-21158   12/20/2012                                                           $7,333,126
                                         Incorrect Waiting Period

                                         Dually Entitled Beneficiaries Who Are Subject
           A-09-12-11210   1/31/2013     to the Windfall Elimination Provision and            $215,457,523
                                         Government Pension Offset




38                                                                            October 1, 2012 - March 31, 2013




                                        Back to Table of Contents
                                                                              Semiannual Report to Congress




                                   Reports with Questioned Costs
                                   October 1, 2012 – March 31, 2013

        Audit Number    Issue Date                        Report                       Dollar Amount

                                       Usefulness of Department of Homeland Security
                                       Travel Data to Identify Supplemental Security
        A-01-11-01142    2/1/2013                                                       $152,200,827
                                       Income Recipients Who Are Outside the United
                                       States
                                       Controls over the Issuance of Supplemental
       A-09-11-21194     3/21/2013                                                      $55,342,288
                                       Security Income Installment Payments

                                       Adjustments to Widow’s Benefits at Full
        A-01-12-11299    3/22/2013                                                       $7,661,824
                                       Retirement Age

                                       Payee Assistance Management, Inc., an
        A-06-12-11261    3/27/2013     Organizational Representative Payee for the          $20,844
                                       Social Security Administration

        Total		                                                                         $740,014,798




October 1, 2012 - March 31, 2013                                                                        39




                                        Back to Table of Contents
Semiannual Report to Congress




                                Reports with Funds Put to Better Use
                                 October 1, 2012 – March 31, 2013

         Audit Number     Issue Date                       Report                       Dollar Amount
                                        Supplemental Security Income Recipients
          A-01-11-01135   10/12/2012    Whose Medicare Benefits Were Terminated             $214,303
                                        Due to Death
                                        Supplemental Security Income Recipients
         A-01-12-21238    12/10/2012                                                       $5,134,041
                                        Eligible for, or Receiving, Russian Pensions

                                        Genesis Eldercare Catonsville Commons, an
          A-13-12-11267   12/10/2012    Organizational Representative Payee for the            $5,863
                                        Social Security Administration
                                        Accumulated Funds Payable to Beneficiaries
         A-09-12-21236    12/11/2012                                                      $4,031,088
                                        or Their Representative Payees

                                        Dually Entitled Beneficiaries Who Are Subject
          A-09-12-11210   1/31/2013     to the Windfall Elimination Provision and         $12,652,302
                                        Government Pension Offset

                                        Adjustments to Widow's Benefits at Full
         A-01-12-11299    3/22/2013                                                      $30,461,596
                                        Retirement Age


          Total		                                                                         $52,499,193




40                                                                        October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                            Semiannual Report to Congress




       Appendix C: Reporting Requirements Under the
       Omnibus Consolidated Appropriations Act of FY
       1997
       To meet the requirements of the Omnibus Consolidated Appropriations Act of FY 1997,
       P.L. 104-208, we are providing requisite data for the second half of FY 2012 from the
       Offices of Investigations and Audit in this report.
       Office of Investigations
       We are reporting over $52 million in SSA funds as a result of our investigative activities
       in this reporting period (10/1/12 - 3/31/13). These funds are broken down in the table
       below.

                                           Investigative Activities

                             1st Quarter              2nd Quarter
                                                                                      Total
                         10/1/12 – 12/31/12         1/1/13 – 3/31/13

         Court Ordered
                              $9,326,659               $9,801,728                  $19,128,387
          Restitution


          Recoveries         $13,445,935               $15,576,329                 $29,022,264


             Fines            $1,457,075                $1,551,113                  $3,008,188


          Settlements/
                               $827,647                 $565,411                    $1,393,058
          Judgments


            TOTAL            $25,057,316               $27,494,581                 $52,551,897



       Office of Audit
       SSA management informed us that the Agency has completed implementing recommendations
       from 7 audit reports during this period valued at over $41 million.
       GENESIS ELDERCARE CATONSVILLE COMMONS, AN ORGANIZATIONAL
       REPRESENTATIVE PAYEE FOR THE SOCIAL SECURITY ADMINISTRATION (A-13-12-
       11267, 12/10/2012)




October 1, 2012 - March 31, 2013                                                                      41




                                       Back to Table of Contents
Semiannual Report to Congress




          We recommended that SSA follow through with its planned action to determine if there is an
          estate for the deceased beneficiary and take action as appropriate. The implemented value
          of this recommendation is $1,081.
          We recommended that SSA remind Genesis Eldercare Catonsville Commons to (a) notify
          the Agency timely when a beneficiary is no longer in its care and (b) obtain SSA’s approval
          of transfers of conserved funds to a new payee or beneficiary. SSA should assess Genesis’
          compliance during its next site review. The implemented value of this recommendation is
          $4,782.
          USING MEDICARE CLAIM DATA TO IDENTIFY DECEASED BENEFICIARIES (A-08-09-
          19105, 8/2/2012)
          We recommended that SSA continue working with the Centers for Medicare and Medicaid
          Services to establish a data use agreement to identify aged beneficiaries who are not using
          Medicare and use this information to conduct Medicare Non Usage Project reviews. The
          implemented value of this recommendation is $9,141,120.
          BENEFIT PAYMENTS MANAGED BY REPRESENTATIVE PAYEES OF CHILDREN IN
          FOSTER CARE IN THE SOCIAL SECURITY ADMINISTRATION’S CHICAGO REGION
          (A-13-11-21105, 6/18/2012)
          We recommended that SSA partner with the State of Michigan to increase opportunities to
          share information, such as establishing an agreement to use the State Verification Exchange
          System (SVES), and discuss with the State of Indiana the existing SVES agreement to
          maximize the potential to identify unsuitable representative payees and decrease instances
          of benefit payment misuse. The implemented value of this recommendation is $1,072,984.
          INDIVIDUAL REPRESENTATIVE PAYEES WHO MISUSE BENEFITS (A-13-10-10182,
          5/4/2012)
          We recommended that SSA repay the 13 beneficiaries identified in our audit for which the
          Agency has obtained restitution from the misusers, but has not repaid these funds to the
          beneficiaries. The implemented value of this recommendation is $29,694.
          We recommended that SSA repay the four beneficiaries we identified where Agency
          negligence was determined concerning the misuse, but the beneficiaries were not paid. The
          implemented value of this recommendation is $30,934.
          FOLLOW-UP: INDIVIDUALS RECEIVING BENEFITS UNDER MULTIPLE SOCIAL
          SECURITY NUMBERS AT DIFFERENT ADDRESSES (A-01-11-11145, 1/13/2012)
          We recommended that SSA take appropriate action, such as assessing overpayments,
          stopping benefits, etc. The implemented value of this recommendation is $487,146.
          HOMELESS OUTREACH PROJECTS AND EVALUATION DEMONSTRATION PROJECT
          (A-03-09-19073, 7/2/2010)
          We recommended that SSA deobligate $83,725 in grant funds awarded but not disbursed
          to one grantee. The implemented value of this recommendation is $96,171.
          PROBATION OR PAROLE VIOLATORS SERVING AS REPRESENTATIVE PAYEES (A-
          01-09-29112, 8/19/2009)
          We recommended that SSA update the computer-matching agreement to identify probation
          or parole violators who are serving as Representative Payees and use the information in
          determining whether a Representative Payee is suitable. The implemented value of this
          recommendation is $30,952,311.




42                                                                          October 1, 2012 - March 31, 2013




                                        Back to Table of Contents
                                                                          Semiannual Report to Congress




        Appendix D: Significant Management Decisions With
        Which the Inspector General Disagrees
        MONITORING CONTROLS FOR THE CONSENT BASED SOCIAL SECURITY NUMBER
        VERIFICATION PROGRAM (A-03-12-11201, 10/25/2012)
        Results of Review: SSA’s monitoring controls for the Consent Based Social Security
        Number Verification (CBSV) program need to be improved. While the User Agreement
        required that participating companies include the date of birth (DoB) on the consent
        form, SSA did not require the DoB as part of the matching criteria. As a result, SSA
        verified about 227,000 names and SSNs without verifying DoBs, of which 337 related
        to children (2 months to 17 years). Because SSA verified the names and SSNs without
        a DoB, it did not alert participating companies to possible discrepancies between the
        DoBs provided by individuals and the DoBs recorded in SSA records. These false
        positive responses may have contributed to the misuse of children’s identities. In
        addition, we found the consent form did not require that the relationship be specified
        for individuals who gave consent on behalf of 126 children who ranged from ages 2
        months to 11 years. Finally, SSA did not always require that participating companies
        conduct an annual compliance review. Specifically, we found
        • 15 (26 percent) companies did not have a compliance review;
        • 17 (29 percent) companies were in various stages of the compliance review process;
        and
        • 26 (45 percent) companies had a compliance review.
        Recommendation: Make a systems change to the CBSV program to prevent the
        processing of verification requests without a DoB.
        Agency Response: SSA disagreed with the recommendation. SSA stated that the
        Agency found it cost prohibitive to change its system to incorporate the DoB in the
        verification process at this time. SSA will reevaluate this decision in the future, as
        resources allow. In the interim, SSA will include more SSN verification disclosures
        related to minors’ records in the audit compliance review certified public accountants
        conduct for participating companies. This inclusion will strengthen efforts to ensure
        companies’ compliance with the revised user agreement requirements for verifying
        minors’ SSNs.
        OIG Response: The cost to change the CBSV system to incorporate the DoB in the
        verification program should not be prohibitive because SSA is reimbursed all costs
        incurred to operate and manage CBSV through fees paid by participating companies.
        Annually, SSA assesses the cost to operate CBSV and adjusts its fees accordingly.
        This helps ensure that the Agency’s appropriation does not bear the cost for CBSV
        since it does not directly relate to the administration of SSA programs. Therefore,
        we encourage the Agency to reconsider and implement our recommendation sooner




October 1, 2012 - March 31, 2013                                                                    43




                                       Back to Table of Contents
Semiannual Report to Congress




          rather than later to protect the identity of children and provide more assurance that
          a valid verification response is provided to third parties.
          BENEFIT PAYMENTS MANAGED BY REPRESENTATIVE PAYEES OF CHILDREN IN
          PENNSYLVANIA’S STATE FOSTER CARE PROGRAMS (A-13-12-11245, 12/4/2012)
          Results of Review: Our review of Pennsylvania foster care records for 6 counties
          identified 130 children whose representative payees were neither the foster care
          parent nor a county-based foster care program and therefore may not have been
          suitable. We believe these children’s benefits were at risk of misuse since these
          payees may not have been using the funds for the children’s current and foreseeable
          needs.
          Recommendation: Conduct assessments for the 130 representative payees identified
          to determine whether the payees are suitable, and if necessary, refer suspected
          misuse to our Office of Investigations.
          Agency Response: SSA disagreed with the recommendation stating the report did
          not contain sufficient analysis to support this recommendation.
          OIG Response: Results of similar computer comparisons using foster care data
          from four other States are included in the report. Based on SSA’s assessments
          of certain representative payees that served 189 children, the Agency determined
          about 28.6 percent misused benefit payments. SSA’s assessments were conducted
          of payees who were not foster care programs or foster care parents. We conclude
          this information is sufficient to warrant our recommendation.




44                                                                     October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                                   Semiannual Report to Congress




       Appendix E: Collections from Investigations and Audits
       The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
       additional information concerning actual cumulative collections and offsets achieved as
       a result of OIG activities each semiannual period.

       Office of Investigations

                Total Restitution Reported by DOJ as Collected for SSA

                                   Total Number
                                                            Court Ordered
                                    of Individuals                                Total Restitution
                  FY                                        Restitution for
                                  Assigned Court                                  Collected by DOJ
                                                             This Period
                                 Ordered Restitution
                  2011                    550                 $26,408,142            See Footnote1

                 2012                     580                 $35,388,290            See Footnote1

                  2013
                                          263                 $15,481,666            See Footnote 1
           (10/1/12 - 3/31/13)

                TOTAL                    1,393                $77,278,098            See Footnote1
       1
        DOJ migrated collection data to a new computer system and is working to generate reports that will
       provide us with this information.



                         Recovery Actions Based on OI Investigations

                                 Total Number of Recovery
                  FY                                                      Amount for Recovery
                                      Actions Initiated

                 2011                         1,310                                     $45,989,019

                 2012                         1,382                                     $53,354,863

                 2013
              (10/1/12 -                        827                                     $29,022,264
               3/31/13)
               TOTAL                          3,519                                    $128,366,146




October 1, 2012 - March 31, 2013                                                                             45




                                           Back to Table of Contents
Semiannual Report to Congress




     Office of Audit
     The following chart summarizes SSA’s responses to our recommendations for the recovery or
     redirection of questioned and unsupported costs. This information is prepared in coordination
     with SSA’s management officials and was current as of March 31, 2013.
                             SSA’s Responses to OIG’s Recommendations
                    Recovery or Redirection of Questioned and Unsupported Costs1
              Reports with    Questioned/                             Amount
                                                 Management                           Amount Written-
        FY    Questioned      Unsupported                          Collected or to                         Balance2
                                                 Concurrence                          Off/Adjustments
                Costs            Costs                             be Recovered

       2011        28        $1,587,604,454     $1,561,809,217       $46,764,785         $79,008,858 $1,461,830,811


       2012        29        $1,170,466,288       $863,001,277      $121,687,025        $292,413,282     $756,365,981


       2013        16         $740,014,798        $274,818,171          $465,063         $21,005,047     $718,544,688


      TOTAL        73        $3,498,085,540     $2,699,628,665     $168,916,873         $392,427,187    $2,936,741,480

        1
         The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by
        the OIG.
        2
         Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/
        Adjustments




46                                                                                   October 1, 2012 - March 31, 2013




                                            Back to Table of Contents
                                                                            Semiannual Report to Congress




         APPENDIX F: Significant Monetary Recommendations
         From Prior FYs for Which Corrective Actions Have Not
         Been Completed
         DISABILITY INSURANCE AND SUPPLEMENTAL SECURITY INCOME CLAIMS ALLOWED
         BUT NOT PAID (A-01-10-10177, 6/20/2011)
         Results of Review: Based on SSA’s review of the cases we identified and referred
         to the Agency, SSA staff determined that some claimants were eligible for benefits
         not paid.
         Recommendation: Complete its work on the remaining cases of the 1,847 unpaid
         claimants we identified and ensure all past due benefits are paid to beneficiaries as
         appropriate.
         Agency Response: SSA agreed with the recommendation.
         Valued at: $8,921,121 in questioned costs.
         Corrective Action: A March 1, 2013 extension was given to the Payment Centers to
         work these cases. Five of the nine regions have completed their cases. The other
         four are working their cases. SSA expects to complete all cases by second quarter
         of 2013.
         DI BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED AND WHO HAVE A
         DATE OF DEATH ON THE NUMIDENT (A-09-10-10117, 4/28/2011)
         Results of Review: SSA needs to improve controls to ensure it takes timely and proper
         actions to resolve death information on the Numident for suspended beneficiaries.
         We estimate that:
         • 4,699 beneficiaries remained in suspended pay status despite the death information
         on their Numident. Of these, we estimate 2,976 were improperly paid approximately
         $23.8 million.
         • 2,715 beneficiaries’ personally identifiable informationI was at risk of being released
         to the public.
         • 157 beneficiaries whose benefits were terminated were improperly paid $342,114.
         Recommendation: Identify and take correction action on the remaining population of
         6,277 suspended beneficiaries who had a date of death on the Numident.
         Agency Response: SSA agreed with the recommendation.
         Valued at: $22,855,376 in questioned costs.
         Corrective Action: SSA is working to review and terminate the identified cases as
         appropriate.




October 1, 2012 - March 31, 2013                                                                      47




                                       Back to Table of Contents
Semiannual Report to Congress




         Recommendation: Take appropriate action to terminate benefits or remove erroneous
         death information from the Numident for the 180 beneficiaries identified by our audit.
         Agency Response: SSA agreed with the recommendation.
         Valued at: $910,282 in questioned costs.
         Corrective Action: SSA is working to review and terminate the identified cases as
         appropriate.
         RECOVERY OF DI PAYMENTS ISSUED AFTER BENEFICIARIES’ DEATHS (A-09-10-
         11037, 1/4/2011)
         Results of Review: SSA needs to improve its controls and procedures to ensure
         that appropriate and timely actions are taken to recover payments issued after
         beneficiaries’ deaths. Based on a random sample of 200 beneficiaries, we estimate
         about
         • $18.8 million in payments after death was not recovered or properly resolved for
         approximately 25,940 deceased beneficiaries, and
         • $34.8 million in payments after death that had been recovered or properly resolved
         needed to be removed as overpayments from SSA’s records for approximately 17,520
         deceased beneficiaries.
         Recommendation: Evaluate the results of its corrective actions for the 68 errors
         and determine whether the Agency should review the population of 6,486 deceased
         beneficiaries with payments after death.
         Agency Response: SSA agreed with the recommendation.
         Valued at: $18,787,948 in questioned costs.
         Corrective Action: Based on the results of the review of the 68 errors, SSA determined
         that action on the population of 6,486 deceased beneficiaries is not necessary. SSA
         has a 3-year period to request a debit of an account for payments disbursed after
         death. If the Agency does not request the debit within 3 years, the request is rejected
         and not processed. This time has elapsed for many of these cases. It would not be
         cost effective to review over 6,000 cases when SSA would only be able to recover
         limited money.
         BENEFITS PAYABLE TO CHILD BENEFICIARIES WHO NO LONGER NEED
         REPRESENTATIVE PAYEES (A-09-09-29116, 8/20/2010)
         Results of Review: SSA needed to improve controls to ensure child beneficiaries who
         attained age 18 were paid benefits that had been previously withheld pending the
         selection of a representative payee. Based on a random sample of beneficiaries, we
         found that SSA did not pay an estimated 13,464 beneficiaries approximately $31.2
         million in withheld benefits.




48                                                                       October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                           Semiannual Report to Congress




         Generally, these errors occurred because SSA did not generate a systems alert to
         identify beneficiaries who should have been paid withheld benefits when they attained
         age 18 or SSA employees did not take corrective actions to pay withheld benefits
         when processing student awards when a child attained age 18.
         Recommendation: Identify and take corrective action on the population of child
         beneficiaries over age 18 whose benefits were withheld pending the selection of a
         representative payee.
         Agency Response: SSA agreed with the recommendation.
         Valued at: $31,052,839 in questioned costs.
         Corrective Action: SSA analyzed the 13,739 records and identified 482 individuals who
         are now in current pay or hold status (H70/H80) on their own SSNs. SSA reviewed the
         482 records and issued underpayments when appropriate. Due to limited resources,
         it will take the Agency a while to review the remaining cases in the OIG’s population,
         perhaps all of FY 2013 or longer.
         RETROACTIVE DI PAYMENTS TO RELEASED PRISONERS (A-06-08-38081, 7/14/2010)
         Results of Review: SSA issued improper or questionable retroactive payments to
         beneficiaries after their release from prison. About half the retroactive payment
         transactions of $10,000 or more we reviewed were either improper or issued without
         any explanation or justification being documented. SSA did not establish sufficient
         controls to ensure large retroactive payments to released prisoners were valid.
         Specifically, SSA payment systems allowed SSA personnel to compute and issue
         large retroactive payments without explanation or justification and without supervisory
         review. The lack of sufficient controls over these payments increased the potential
         for fraud, waste, or abuse.
         Based on our sample results, we estimate that SSA issued approximately $10.3
         million in retroactive payments to prisoners that were either incorrect or could not be
         explained based on available documentation.
         Recommendation: Establish controls to ensure employees explain and justify large
         retroactive payments issued to released prisoners.
         Agency Response: SSA agreed with the recommendation.
         Valued at: $6,468,914 in questioned costs.
         Corrective Action: Implementation of this recommendation is tied to the implementation
         of a separate recommendation. Enhancements to the Prisoner Update Processing
         System (PUPS) screens are needed to force users to document PUPS Remarks with
         the rationale for reinstating benefits when the reinstatement effective date is equal to
         or earlier than the confinement date or conviction date.




October 1, 2012 - March 31, 2013                                                                     49




                                       Back to Table of Contents
Semiannual Report to Congress




         FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
         SUSPENDING COLLECTION EFFORTS ON SSI OVERPAYMENTS (A-04-09-19039,
         9/2/2009)
         Results of Review: We found that SSA took action on three of the recommendations
         in our prior report. However, funding limitations delayed development of an automated
         system that would address the two remaining recommendations. SSA’s corrective
         actions resulted in some improvements in the error rates we previously reported.
         However, we still found similar conditions identified in the prior report.
         We also found that SSA did not always (1) document the justification for the decisions
         to suspend overpayment collection efforts and (2) obtain the required management
         approval before suspending an overpayment. On occasion, SSA personnel suspended
         collection efforts when debtors or the debtors’ representative payees had reported
         earnings that may have enabled some repayment. Also, SSA personnel suspended
         collections of some debts and classified the debtors as unable to locate or out of
         the country even though we did not find evidence that SSA attempted to contact the
         debtors or the debtors’ representative payees through their current employer. Overall,
         we estimated for 6,500 cases, totaling $52.2 million, SSA personnel did not follow
         policies and procedures when it suspended overpayment collection efforts.
         Recommendation: Consider revising the May 2009 policy to require the 2-PIN process
         (management approval) for suspension decisions controlled by the Recovery and
         Collection of Overpayment Process.
         Valued at: $22,639,420 in funds put to better use.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA discussed the feasibility of a 2-pin process for suspension
         decisions controlled by the Recovery and Collection of Overpayments System with
         the Agency’s Office of Systems. Through those discussions, SSA determined that
         the 2-pin process is feasible but due to Office of Systems resources, the Agency is
         not sure when this process can be implemented but will continue to follow up with
         the Office of Systems.
         FOLLOW-UP ON DISABLED DI BENEFICIARIES WITH EARNINGS REPORTED ON THE
         MASTER EARNINGS FILE (A-01-08-28075, 4/15/2009)
         Results of Review: Our audit found that the Agency made efforts to reduce overpayments
         resulting from work activity. However, we found that SSA did not evaluate all earnings,
         and as a result, overpayments resulted from work activity.
         Based on our review, we estimate that approximately $3.1 billion was overpaid to
         about 173,000 disabled beneficiaries because of work activity. Although SSA identified
         about 58 percent of these overpayments, we estimate the remaining 42 percent—
         approximately $1.3 billion—went undetected by the Agency to about 49,000 disabled
         beneficiaries. In addition, we estimate SSA will continue to incorrectly pay about




50                                                                       October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                           Semiannual Report to Congress




         $382 million over the next 12 months to individuals who are no longer entitled to
         disability benefits if action is not taken by the Agency.
         SSA performed 170,664 work-related continuing disability reviews (CDR) in 2008
         at a unit cost of $397.45. Based on our review, we estimate about $3.1 billion was
         overpaid to approximately 173,000 disabled beneficiaries (out of 518,080 in the
         estimated universe) because of work activity. To perform work-related CDRs for all
         518,080 disabled beneficiaries, it would cost SSA about $206 million (assuming the
         $397.45 unit cost remains the same). This results in a potential benefit-cost ratio of
         $15.0 to $1.0.
         We recognize SSA’s efforts to improve the work-related CDR process. In addition,
         we acknowledge the Agency’s limited resources with which to perform this workload.
         However, we believe SSA may achieve greater savings in the long-term if the
         Agency could provide the resources to perform work-related CDRs for all disabled
         beneficiaries with substantial earnings reported on the Master Earnings File.
         Recommendation: Develop and implement a plan to allocate more resources to
         timely perform work-related continuing disability reviews—and assess overpayments
         resulting from work activity—for cases identified by the Agency’s earnings enforcement
         process.
         Valued at: $1,335,815,580 in questioned costs and $381,563,100 in funds put to
         better use.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA made the following improvements to the Agency’s work-
         related CDR processes and management information.
         • SSA established a dedicated staff, which targets the oldest cases.
         • SSA now prioritizes enforcement alerts (for cases with unreported earnings) by
         the amount of earnings. SSA works the cases with highest earnings first to minimize
         overpayments.
         • SSA improved communications between its field offices and processing centers
         for priority cases that must be transferred between components.
         • SSA established an Agency standard report for work CDR management information
         and overpayments. It is currently in the final stages of validation.
         • SSA is establishing streamlined earnings reporting processes via telephone and
         Internet.
         In addition, as recommended by the Government Accountability Office, SSA is
         evaluating the feasibility of:
         • Periodically matching disability beneficiaries and recipients to Federal payroll data.




October 1, 2012 - March 31, 2013                                                                     51




                                       Back to Table of Contents
Semiannual Report to Congress




         • Using the Automated Earnings Reappraisal Operation to identify individuals who
         have returned to work.


         Significant M onetary R ecommendations From Prior
         Semiannual Report to Congress for Which Recent
         Corrective Actions Have Been Made
         DEDICATED ACCOUNT UNDERPAYMENTS PAYABLE TO CHILDREN (A-09-09-29110,
         11/10/2010)
         Results of Review: SSA needs to improve controls to ensure it pays dedicated account
         underpayments to representative payees for the children in their care. Based on a
         random sample of 275 underpayments, we found SSA did not pay an estimated 7,775
         underpayments totaling approximately $35 million. This included 3 organizational
         representative payees who did not establish dedicated accounts for $367,612 in
         underpayments for 47 children.
         Generally, this occurred because SSA did not have adequate controls to ensure that
         representative payees established dedicated accounts. In addition, SSA staff did not
         notify representative payees about the existence of underpayments that required the
         establishment of dedicated accounts, or adequately control the issuance of installment
         payments.
         Recommendation: Identify and take corrective action on the population of Supplemental
         Security Income (SSI) recipients who have dedicated account underpayments.
         Agency Response: SSA agreed with the recommendation.
         Valued at: $34,229,920 in questioned costs.
         Corrective Action: SSA published AM-10193 - AM-10193: Reminder Items Regarding
         Dedicated Account Underpayments Payable to Children on December 15, 2010 to
         remind technicians to ensure they notify representative payees of any underpayments
         that require the establishment of a dedicated account.




52                                                                      October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                           Semiannual Report to Congress




         APPENDIX G: Significant Non-Monetary Recommendations
         From Prior FYs for Which Corrective Actions Have Not
         Been Completed
         STATE DISABILITY DETERMINATION SERVICES’ EMPLOYEE AND CONTRACTOR
         SUITABILITY PROGRAM (A-15-11-21180, 12/21/2011)
         Results of Review: Although SSA had a limited policy in place that required a statewide
         criminal background check, we noted a number of vulnerable areas in the policy that
         could pose a risk to SSA data and systems. We found that State policy regarding
         suitability determinations for employees, contractors, and other DDS staff varied
         widely from State to State. Some States had yet to implement a policy requiring
         statewide criminal background checks. Additionally, we found that although most
         States had a policy in place for prospective employees, the policy did not require
         criminal background checks for existing employees.
         SSA performed some oversight of the DDS suitability process. Regional Office staff
         should review the DDS’ self-assessments, but beyond this, Regional Office staff stated
         they leave the suitability determinations to the DDSs. According to SSA, Regional
         Office staff is responsible for conducting the day-to-day monitoring of the DDSs.
         Recommendation: Require all individuals with access to SSA systems and data to
         have an appropriate suitability determination consistent with the requirements of
         SSA’s suitability program.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA Stated that its State DDSs follow current SSA’s suitability
         program policy requirements. SSA also continues efforts to implement HSPD 12
         Credentialing. Specifically, the Agency completed implementation in the Alabama DDS
         in May of 2012, and is currently implementing in the Minnesota DDS. The estimated
         completion of the Minnesota DDS is May 2013.
         CONTROLS FOR ISSUING SOCIAL SECURITY NUMBER PRINTOUTS (A-04-11-11105,
         12/13/2011)
         Results of Review: Despite some corrective actions SSA took in response to our
         previous report, we continue to believe the Agency should strengthen its controls
         for issuing SSN Printouts. In fact, since our December 2007 report, we found an
         increase in the (1) number of SSN Printouts SSA issued, (2) volume of numberholders
         obtaining more than 10 SSN Printouts in a day and a year, and (3) occurrences of
         fraud involving SSN Printouts. Additionally, SSA managers still had little information
         to monitor the number of SSN Printouts issued and related anomalies.
         SSA stated its procedures for issuing SSN Printouts must comply with the intent
         of the Privacy Act and Office of Management and Budget (OMB) guidelines—to




October 1, 2012 - March 31, 2013                                                                     53




                                       Back to Table of Contents
Semiannual Report to Congress




         provide individuals appropriate and timely access to their SSN information. We
         acknowledge the importance of SSA’s compliance with Privacy Act and OMB
         guidelines. Nevertheless, we are concerned SSA continues to issue a high number
         of SSN Printouts with less stringent identity requirements and fewer controls than
         those for SSN cards.
         Finally, SSA field offices located near the United States-Mexico border did not issue
         a higher number of SSN Printouts than other field offices.
         Recommendation: Establish a limit on the number of SSN Printouts an individual
         may obtain in a day, year, and lifetime and require specific management approval
         for requests that exceed that limit
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: In response to this audit, SSA is modifying its policies for issuance
         of Social Security Number (SSN) Printouts.  SSA expects this new policy to take
         effect in the summer of 2013.  Once implemented, SSA stated that applicants for
         SSN Printouts will be required to submit the same evidence that is needed for a
         replacement SSN card. In addition, only one SSN Printout can be issued per day, and
         SSN Printouts will be subject to the same yearly and lifetime limits as applicants for
         replacement SSN cards.  Printouts do not count against the card limits, but once the
         card limits are met, the applicant must provide evidence of an acceptable exception
         reason (e.g., a hardship) before he or she can receive an SSN printout.  Requests
         to exceed card limits must be approved by a manager.  In addition, like applications
         for replacement SSN cards, requests for SSN Printouts will be processed through
         the Social Security Number Application Process (SSNAP).
         FOLLOW-UP: SURVIVOR BENEFITS PAID IN INSTANCES WHEN THE SOCIAL
         SECURITY ADMINISTRATION REMOVED THE DEATH ENTRY FROM A PRIMARY WAGE
         EARNER’S RECORD (A-06-10-20135, 9/1/2011)
         Result of Review: SSA has made progress in completing corrective actions to address
         the recommendations in our September 2006 report. SSA determined that 286 of
         the 307 wage earners identified during the prior review were actually deceased. SSA
         confirmed that 14 wage earners were alive and took action to terminate survivor benefit
         payments. SSA erroneously issued approximately $579,000 in survivor benefits to
         family members of these wage earners. SSA could provide no documentation to
         indicate completion of death verifications for the remaining seven individuals.
         As part of our follow-up review, we identified an additional 642 wage earners whose
         family members received survivor benefits even though SSA had deleted the wage
         earners’ death entries from the Death Master File, and SSA’s Numident file indicated
         the wage earners were alive. At the time of our review, SSA paid approximately
         $644,000 in monthly survivor benefits to family members of the 642 wage earners.
         Our review of sampled records indicated that, similar to our 2006 findings, SSA
         employees who deleted these death entries did not document pertinent facts to
         support or explain these transactions. The resurrection transactions indicated the




54                                                                        October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                          Semiannual Report to Congress




         wage earners were alive, and survivor benefits were improper. If the wage earners
         were actually deceased, SSA erroneously deleted their information from the Death
         Master File.
         Recommendation: Perform death verifications for each of the 642 records with
         survivor benefit payments identified in this review and the 7 pending from our prior
         review and take appropriate action (for example, terminate benefits and establish
         overpayments, refer potentially fraudulent cases to OIG, and/or reinstate death
         entries).
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA plans to send the cases to the field offices for processing.
         AGED BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED FOR ADDRESS
         OR WHEREABOUTS UNKNOWN (A-09-09-29117, 6/17/2011)
         Result of Review: SSA had not taken appropriate actions for DI beneficiaries over
         age 70 whose benefits were suspended for address, whereabouts unknown, or
         miscellaneous reasons. We estimate that
         • 29,196 beneficiaries whose whereabouts were unknown for longer than 7 years
         had not been terminated based on a presumption of death;
         • 5,981 beneficiaries had been suspended between 2 and 7 years because their
         whereabouts were unknown; and
         • 2,964 foreign beneficiaries were suspended because they did not return the foreign
         enforcement questionnaire (FEQ), and there was no evidence that SSA conducted
         the required follow-up actions to determine their whereabouts or whether they were
         deceased.
         Recommendation: Identify and terminate in accordance with the Social Security
         Administration’s presumption of death policy, the entitlement of the estimated 29,196
         beneficiaries whose whereabouts were unknown and have been in suspended pay
         status for 7 or more years.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA will identify and terminate beneficiaries in this category. The
         Agency’s DI Beneficiaries Suspense Workgroup will study other long-term suspense
         categories and SSA will act on its findings and recommendations.
         Recommendation: Take appropriate action (including termination of benefits) for the
         estimated 2,964 suspended beneficiaries living outside the United States who did
         not return the FEQ.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA’s Office of Systems identified the beneficiaries requiring
         review on 6/26/12. SSA continues to await guidance from the Office of International




October 1, 2012 - March 31, 2013                                                                    55




                                      Back to Table of Contents
Semiannual Report to Congress




        Policy (OIP): on 7/31/12, OIP requested an opinion from the Office of General Counsel
        (OGC). OIP is still waiting for a response from OGC, which may take several months.
        SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH UNREPORTED REAL PROPERTY
        (A-02-09-29025, 6/1/2011)
        Results of Review: SSA’s records on real property ownership matched with public
        property records in LexisNexis for 298 of the 350 recipients we reviewed. SSA
        determined that 25 recipients did not own what appeared to be unreported properties
        listed in LexisNexis. For the remaining 27 recipients, SSA determined LexisNexis
        was accurate and the recipients owned unreported real property. Sixteen of these 27
        recipients were improperly paid about $112,000 when the value of their unreported
        real property was taken into account. The Agency could not recover approximately half
        of this because of its rules of administrative finality. Based on our sample results, we
        estimated that about 541,580 recipients misreported real property ownership, and SSA
        improperly paid 320,940 of these recipients over $2.2 billion. Comparing the costs of
        using LexisNexis to the benefits gained, we concluded that the use of LexisNexis was
        cost effective and would save about $350 million annually.
        Recommendation: Expand the use of LexisNexis if the pilot study demonstrates it is
        cost-beneficial to do so.
        Agency Response: SSA agreed with the recommendation.
        Corrective Action: Users will be transitioned from Lexis Nexis Risk Management to
        Accurint by June 1, 2013.
        THE SOCIAL SECURITY ADMINISTRATION’S TIME ALLOCATION SYSTEM (A-14-10-
        20122, 4/18/2011)
        Result of Review: We found several events that led to SSA’s decision to terminate
        the Time Allocation System (TAS). Some of these events raised questions about
        SSA’s management of the TAS project, given that the project was terminated without
        proper analysis to determine which Workload Management System (DOWS or TAS)
        more accurately accounted for workload time measurements. We believe if SSA had
        conducted sufficient project planning before initiating the TAS project, most, if not
        all, of the events identified in this report could have been resolved before expending
        approximately $36 million of Agency resources. We have organized our findings based
        on the Systems Development Life Cycle used by SSA.
        • Planning and Analysis Phase
         - Insufficient Planning and Analysis Leading to the Termination of TAS
         - TAS Benefits and Costs Were Not Identified Timely
        • Construction Phase
         - Insufficient Testing Due to Storage Constraints




56                                                                      October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                            Semiannual Report to Congress




        • Post Release Phase
         - No Post Implementation Review (PIR) after a system was in operation for 6 months,
        or after TAS was terminated, to determine reasons for the project’s failure.
        • Maintenance Phase
         - Inability to maintain TAS cost-effectively.
        Recommendation: Take the necessary steps to validate the accuracy of the current
        work measurement system or future replacements.
        Agency Response: SSA agreed with the recommendation.
        Corrective Action: SSA is currently refining the Agency’s Post Implementation Review
        guidance.
        Recommendation: Perform a PIR after a system has been in operation for 6 months
        and for all terminated projects to determine reasons for the project’s termination.
        Agency Response: SSA agreed with the recommendation.
        Corrective Action: In support of conducting PIRs in FY 2013, SSA’s Office of Systems is
        in the process of refining the policy and framework that was developed. SSA is comparing
        the PIR data requirements against the Project Success Verification (PSV) process in
        order to identify the areas to enhance as outlined in the OMB guidance. SSA continues
        to perform PSVs on the Agency’s completed projects.
        IMPACT OF ALIEN NONPAYMENT PROVISIONS ON FIELD OFFICES ALONG THE
        MEXICAN BORDER (A-08-10-20140, 2/15/11)
        Results of Review: While we recognize current law requires that alien nonpayment
        provision (ANP) beneficiaries routinely visit the United States to maintain their benefits,
        we believe this practice has a significant impact on some field offices along the Mexican
        border. For example, we found that over 1,000 ANP beneficiaries visit some field offices
        monthly to establish presence in the United States. Providing services to such a large
        volume of beneficiaries increases workload; adds to wait times; and, during high traffic
        days, results in some office space issues. Furthermore, field office personnel at each
        office we visited told us the number of ANP beneficiaries is increasing. For these reasons,
        some field office personnel we interviewed questioned the need for ANP beneficiaries
        to routinely visit field offices.
        Recommendation: Continue to work with the Department of Homeland Security (DHS)
        to verify the identities of ANP beneficiaries at the border. To ensure consistency, we
        believe SSA should consider developing model language for field offices to use when
        establishing agreements with DHS. Once implemented, field office personnel should
        monitor the identity verification process to ensure that DHS personnel are complying
        with SSA policies and procedures.
        Agency Response: SSA agreed with the recommendation.




October 1, 2012 - March 31, 2013                                                                      57




                                        Back to Table of Contents
Semiannual Report to Congress




         Corrective Action: After working with DHS through the Biometric Identity Proofing
         Workgroup, it was determined there were disclosure and data exchange issues that
         could not be resolved. The lead for the Bio-Metrics Workgroup was the Office of Chief
         Information Officer, which was dismantled in 2011. In addition, the Office of General
         Counsel expressed legal issues with the ownership and storing of biometric data.
         OFFICE OF DISABILITY ADJUDICATION AND REVIEW HEARING REQUESTS
         DISMISSALS (A-07-10-20171, 12/14/10)
         Results of Review: We found that there were areas where improvements could be
         made for dismissing hearing requests.
         • For untimely hearing requests, our review disclosed cases where dismissals were
         not (1) appropriate, (2) supported by the Office of Disability Adjudication and Review
         (ODAR) requests for claimants’ explanations for untimely filing, (3) supported by an
         ALJ rationale, or (4) processed timely.
         • For abandonment dismissals, we found cases where the dismissals were issued
         without the necessary attempts to contact claimants documented in the case folders.
         • For withdrawal dismissals, we found one case where the claimant’s case folder
         did not contain evidence the claimant or the claimant’s representative requested
         the hearing request be withdrawn.
         In addition, our analysis of dismissal rates identified wide variances among ODAR
         regions, hearing offices, and ALJs.
         Recommendation: Determine whether factors are present that explain variances in
         dismissal rates among ODAR’s regions, hearing offices, and ALJs.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA conducted ODAR Continuing Education Program Quarterly
         IVT on dismissals in January 2013. The Office of Appellate Operations (OAO)
         continues to evaluate case processing options that would allow specialized staff to
         process all requests for review on ALJ dismissals. In addition, OAO is conducting a
         focused study on dismissals.
         DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED BY
         DISABILITY DETERMINATION SERVICES AND SUBSEQUENTLY ALLOWED
         BY ADMINISTRATIVE LAW JUDGES (A-07-09-19083, 8/20/2010)
         Results of Review: We identified the four impairments that were most often denied
         by DDSs in Calendar Years 2004 through 2006, appealed to the hearing level, and
         subsequently allowed. These impairments were Disorders of Back; Osteoarthrosis
         and Allied Disorders; Diabetes Mellitus; and Disorders of Muscle, Ligament, and
         Fascia. Our analysis of cases with these four impairments disclosed:
         • Claimant age impacted disability determinations.
         • Determinations of claimants’ ability to work resulted in differences at the DDS and
         hearing levels.




58                                                                      October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                         Semiannual Report to Congress




         • Claimant representation was more prevalent in cases allowed at the hearing level
         than in cases decided at the DDS level.
         • Cases were allowed at the hearing level based on a different impairment than that
         on which the DDS made its determination.
         • States had both DDS denial rates and hearing level allowance rates above the
         national averages.
         • ODAR regions, hearing offices, and ALJs had wide variations in allowance rates.
         Recommendation: SSA should consider analyzing variances between the hearing
         offices and administrative law judges with high and low allowance rates for the four
         impairments we analyzed to determine whether factors are present that support the
         variances
         Agency Response: SSA agreed with the recommendation
         Corrective Action: SSA’s Office of Appellate Operations (OAO) is developing a report,
         which will track the allowance and denial rates based on specific impairments.
         Once the report is complete and the data is captured, SSA will analyze that data,
         and in consultation with the Office of the Chief Administrative Law Judge (OCALJ),
         determine if focused reviews are necessary.
         FOLLOW-UP OF PENDING WORKERS’ COMPENSATION (A-08-09-19167,
         7/12/2010)
         Results of Review: SSA had not taken corrective actions to address recommendations
         in our September 2005 report. Specifically, SSA had not (1) followed through with
         steps to reduce its backlog of DI cases having pending Workers‘ Compensation
         (WC) claims; (2) developed and implemented an automated process to ensure
         it systematically and routinely follows up on new pending WC cases; or
         (3) explored systems enhancements that would detect situations in which WC is not
         applicable to prevent personnel from retrieving and analyzing cases that no longer
         require development. As a result, the volume of cases with WC claims pending for
         2 or more years increased from 227,615 in January 2005 to 268,825 in November
         2009, an 18-percent increase over the past 4 years. In addition, we estimated SSA
         had overpaid DI beneficiaries between $44 and $58 million because of unreported
         WC payments since our June 2003 report.
         Recommendation: SSA should explore systems enhancements that would detect
         situations in which WC is not applicable to prevent personnel from retrieving and
         analyzing cases that no longer require development.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: There is no legal requirement that States report WC benefit
         information to SSA. Therefore, SSA must rely on the disabled worker, the worker’s
         attorney, or other outside sources to obtain WC verification. However, SSA continues
         to propose legislation mandating State reporting. This legislative proposal would
         require State and local governments and other entities that administer WC and




October 1, 2012 - March 31, 2013                                                                   59




                                      Back to Table of Contents
Semiannual Report to Congress




      public disability benefit (PDB) plans to provide SSA with information on the receipt
      of payments to an individual under such plans.  SSA would use this information to
      offset DI benefits and determine entitlement to SSI payments, as necessary.  The
      proposal would also provide for the development and implementation of a system to
      collect this information requiring a uniform format from State and local governments
      and private insurers.  Under the proposal, SSA would also provide pertinent collected
      information to the Secretary of Health and Human Services for child support enforcement
      purposes.  This proposal would also alleviate our dependency on the wage earner
      to provide accurate and timely reporting of WC and PDB. SSA has made attempts to
      negotiate  with other federal agencies to establish data matches to obtain federal WC
      benefit information on disabled workers who also receive Title II benefits. In 2006, SSA
      was successful in negotiating an agreement with the Department of Labor (DOL) to
      obtain access to DOL’s Agency Query System (AQS) to obtain verification of federal
      WC paid under the Federal Employees Compensation Act (FECA).

      Significant Non-Monetary Recommendations From Prior
      Semiannual R eport to C ongress for Which R ecent
      Corrective Action Has Been Made
      None to report




60                                                                      October 1, 2012 - March 31, 2013




                                      Back to Table of Contents
                                                                           Semiannual Report to Congress




         APPENDIX H: Office                  of the Inspector             General Peer
         Reviews
         OFFICE OF AUDIT
         • Our Office of Audit is required to undergo a peer review every three years, in
         accordance with generally accepted government auditing standards.
         • The final System Review Report related to our last peer review, conducted by the
         Department of Veterans Affairs, was issued in August 2012. We received a rating of
         pass, which means that the review team concluded that the system of quality control
         for the audit organization had been suitably designed and complied with to provide us
         with reasonable assurance of performing and reporting in conformity with applicable
         professional standards in all material respects. The Department of Veterans Affairs
         OIG identified no deficiencies that affected the nature of the report. Further, there
         were no findings or recommendations as a result of this peer review.
         • During FY 2013, we conducted a peer review of the DOL OIG's Office of Audit. We
         issued our report on March 15, 2013 and made no recommendations as a result of
         this peer review.
         • There are no outstanding recommendations from prior audit peer reviews completed
         by us, or from prior reviews of our organization.


         OFFICE OF INVESTIGATIONS

         • Our Office of Investigations is required to undergo a peer review every three years to
         ensure general and qualitative standards comply with the requirements of the Quality
         Standards for Investigations adopted by the CIGIE. The peer review also ascertains
         whether adequate internal safeguards and management procedures exist to ensure
         that the law enforcement powers conferred by the 2002 amendments to the Inspector
         General Act are properly exercised pursuant to Section 6(e) of the Inspector General
         Act (as amended) and the United States Attorney General Guidelines for Offices of
         Inspector General with Statutory Law Enforcement Authority.

         • During this fiscal year, the Office of Investigations neither underwent nor conducted
         a peer review.

         • There are no outstanding recommendations from prior investigative peer reviews
         completed by us or from prior reviews of our organization.




October 1, 2012 - March 31, 2013                                                                     61




                                       Back to Table of Contents
Semiannual Report to Congress




         APPENDIX I: Review of Legislation and Regulations

         Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the
         SSA OIG to review existing and proposed legislation and regulations relating to
         SSA’s programs and operations; and make recommendations concerning their
         impact on those programs or on the prevention of fraud and abuse. We accomplish
         this in several ways. First, many of our audits and other reports evaluate SSA’s
         compliance with existing laws and regulations. When appropriate, we recommend
         issuing relevant regulations or seeking appropriate legislative authority; and we
         provide a status of those recommendations in our Semiannual Report to Congress.
         Finally, we describe in our annual Audit Work Plan planned reviews that will
         address issues related to laws and regulations.
         With regard to proposed legislation and regulations, we provide comments on
         pending or proposed legislation to SSA’s Office of Legislation and Congressional
         Affairs, which includes those comments in its agency response to OMB. In addition,
         we participate on an SSA working group that reviews legislative proposals
         throughout the year. This working group provides feedback on proposals submitted
         from all SSA components. Finally, the Inspector General is an active member of the
         CIGIE Legislation Committee. In this role, we provide input to responses prepared
         by the Committee to congressional staff on the impact of proposed legislation,
         and we meet with staff as needed to discuss legislative issues.
         During this reporting period, we reviewed several legislative proposals to ensure
         that the proposals adequately addressed the potential for fraud and abuse in
         SSA’s programs and operations. In this session of Congress, H.R. 3475, Keeping
         IDs Safe Act of 2011 was introduced. This legislation was designed to protect
         SSA’s information related to deceased individuals. On May 8, 2012, the Inspector
         General testified at a hearing on Identity Theft and Tax Fraud, regarding how our
         investigations have shown that individuals can use available death data to obtain
         SSNs to commit fraud. H.R. 3475 is designed to address this concern. We have
         provided technical input to congressional staff on the proposed language, with
         suggested modifications as appropriate. Specifically, we suggested language
         relating to the prosecution of individuals who commit violations of the proposed
         legislation, along with appropriate criminal and civil penalties.
         Throughout the Federal Government, improper payments are a major concern. On
         July 25, 2012, the Inspector General testified at a hearing on the Use of Technology
         to Improve the Administration of SSI’s Financial Eligibility Requirements. He
         testified that the prolonged process to secure computer matching agreements with
         other Federal agencies pursuant to the Computer Matching and Privacy Protection
         Act (CMPPA) often delays or derails time-sensitive audit and investigative projects.
         This process hampers our ability to prevent fraud and reduce improper payments.
         We support a CIGIE legislative proposal to exempt all Federal OIGs from complying
         with the provisions of the CMPPA for projects relating to fraud, waste, and abuse;
         and we have met with various congressional staff to provide input on this issue.




62                                                                       October 1, 2012 - March 31, 2013




                                       Back to Table of Contents
                                                                     Semiannual Report to Congress




             Glossary of Acronyms
              AC            Appeals Council
              ALJ           Administrative Law Judge
              AET           Annual Earnings Test
              BIC-D         National Deceased Payee Project
              BOND          Benefit Offset National Demonstration
              CBSV          Consent Based Social Security Number Verification
              CDI           Cooperative Disability Investigations
              CDR           Continuing Disability Review
              CIGIE         Council of Inspectors General on Integrity and
                            Efficiency
              CKEEP         Central Kentucky Economic Empowerment Project
              CMP           Civil Monetary Penalty
              DC            Double Check Negotiation
              DDS           Disability Determination Services
              DHS           Department of Homeland Security
              DI            Disability Insurance
              DMF           Death Master File
              DOJ           Department of Justice
              DOL           Department of Labor
              DUA           Disaster Unemployment Assistance
              EDR           Electronic Death Registration
              FEQ           Foreign Enforcement Questionnaire
              FI            Financial Institutions
              FY            Fiscal Year
              FOIA          Freedom of Information Act
              GAO           Government Accountability Office
              ICE           Immigration and Customs Enforcement
              IO            Immediate Office
              IRS           Internal Revenue Service
              IT            Information Technology
              IP            Internet Protocol
              LDOL          Louisiana Department of Labor
              LM            Lockheed Martin
              MBR           Master Beneficiary Record

October 1, 2012 - March 31, 2013                                                               63




                                      Back to Table of Contents
Semiannual Report to Congress




           Glossary of Acronyms (Continued)
            MEF          Master Earnings File
            MI           Management Information
            NCC          National Computer Center
            NH           Number Holder
            OA           Office of Audit
            OAO          Office of Appellate Operations
            OASDI        Old-Age, Survivors, and Disability Insurance
            OCIG         Office of the Counsel to the Inspector General
            ODAR         Office of Disability Adjudication and Review
            OER          Office of External Relations
            OI           Office of Investigations
            OIG          Office of the Inspector General
            OMB          Office of Management and Budget
            OQAPR        Office of Quality Assurance and Professional
                         Responsibility
            OQP          Office of Quality Performance
            OTRM         Office of Technology and Resource Management
            PASS         Plan to Achieve Self Support
            PII          Personally Identifiable Information
            PUPS         Prisoner Update Processing System
            PIR          Post Implementation Review
            SAC          Special Agent-in-Charge
            SSA          Social Security Administration
            SPS          Single Payment System
            SSI          Supplemental Security Income
            SSN          Social Security Number
            the Act      Social Security Act
            TAS          Time Allocation System
            TY           Tax Year
            U.S.         United States
            VA           Department of Veterans Affairs
            WC           Workers’ Compensation



64                                                                October 1, 2012 - March 31, 2013




                                    Back to Table of Contents
